<html>
<title> - THE NEXT GENERATION OF NATIONAL SERVICE</title>
<body><pre>[Senate Hearing 111-539]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-539
 
                THE NEXT GENERATION OF NATIONAL SERVICE

=======================================================================



                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                EXAMINING THE FUTURE OF NATIONAL SERVICE

                               __________

                             MARCH 10, 2009

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate



                  U.S. GOVERNMENT PRINTING OFFICE
48-041                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut
TOM HARKIN, Iowa
BARBARA A. MIKULSKI, Maryland
JEFF BINGAMAN, New Mexico
PATTY MURRAY, Washington
JACK REED, Rhode Island
BERNARD SANDERS (I), Vermont
SHERROD BROWN, Ohio
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
JEFF MERKLEY, Oregon
  

                                     MICHAEL B. ENZI, Wyoming
                                     JUDD GREGG, New Hampshire
                                     LAMAR ALEXANDER, Tennessee
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     JOHN McCAIN, Arizona
                                     ORRIN G. HATCH, Utah
                                     LISA MURKOWSKI, Alaska
                                     TOM COBURN, M.D., Oklahoma
                                     PAT ROBERTS, Kansas
                                       

           J. Michael Myers, Staff Director and Chief Counsel

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)



                            C O N T E N T S

                               __________

                               STATEMENTS

                        TUESDAY, MARCH 10, 2009

                                                                   Page
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland, opening statement....................................     1
    Prepared statement...........................................     1
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, prepared statement.............     4
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming..     5
    Prepared statement...........................................     6
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     7
    Prepared statement...........................................    10
McCain, Hon. John, a U.S. Senator from the State of Arizona......    12
Herbert, Gary, Lieutenant Governor, State of Utah, prepared 
  statement......................................................    12
Solomont, Alan, Board of Directors and Chair, Corporation for 
  National and Community Service, Chairman and CEO, Solomont 
  Bailis Ventures, Weston, MA....................................    13
    Prepared statement...........................................    15
Goldsmith, Stephen, Vice Chair, Corporation for National and 
  Community Service and Daniel Paul Professor of Government and 
  Director of the Innovations, American Government Program, 
  Cambridge, MA..................................................    17
    Prepared statement...........................................    19
Racicot, Marc, Former Governor of Montana, Bigfork, MT...........    21
    Prepared statement...........................................    23
Sagawa, Shirley, Visiting Fellow, Center for American Progress, 
  and Co-founder, Sagawa/Jospin Consulting, Washington, DC.......    24
    Prepared statement...........................................    26
Strong, Lester, CEO, Experience Corps, Washington, DC............    29
    Prepared statement...........................................    31
Bouchard, Michelle, President, Healthcorps, New York, NY.........    34
    Prepared statement...........................................    36
Brown, Michael, CEO, City Year, Boston, MA.......................    38
    Prepared statement...........................................    41
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut....................................................    46
    Prepared statement...........................................    48

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Prepared statement of:
        Kopp, Wendy, CEO and Founder of Teach for America........    63
    Questions of Senator Hatch to:
        Mr. Goldsmith............................................    64
        Mr. Solomont.............................................    64
        The Panel................................................    65
        Mr. Racicot..............................................    65

                                 (iii)


                THE NEXT GENERATION OF NATIONAL SERVICE

                              ----------                              


                        TUESDAY, MARCH 10, 2009

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
SD-430, Dirksen Senate Office Building, Hon. Barbara A. 
Mikulski presiding.
    Present: Senators Mikulski, Dodd, Murray, Enzi, Isakson, 
McCain, and Hatch.

                 Opening Statement of Senator Mikulski

    Senator Mikulski. The Senate Committee on Health, 
Education, Labor, and Pensions will come to order. Today's 
hearing is entitled, ``The Next Generation of National 
Service.''
    The purpose of the hearing today is to take testimony on 
the status of where we are at the Corporation for National and 
Community Service and our famous AmeriCorps and get the views 
of the chair of the National and Community Service Commission, 
along with Stephen Goldsmith, and also the vice chair.
    We will also be listening to very talented social 
entrepreneurs, as we look at ways to renew, refresh, and 
reinvigorate national service. We are going to be listening to 
a distinguished group of people that includes: practitioners, 
social entrepreneurs who increase the social capital in our 
country, as well as a governor who oversaw the commission in 
his own State and knows what a difference service makes.
    I want to acknowledge the fact that Senator Kennedy and 
Senator Hatch have put forth a bill that will be our framework 
as we go to markup, and also, for today's hearing. Senator 
Kennedy wanted so much to be here in person to listen to you 
for this review and also to get new ideas on how we can keep 
national service as fresh as the country wants us to.
    Senator Kennedy has prepared a statement that I am going to 
read in lieu of my own. I ask unanimous consent that my full 
statement go in the record.
    [The prepared statement of Senator Mikulski follows:]

                 Prepared Statement of Senator Mikulski

    Good afternoon. I'd like to welcome and thank our panel of 
witnesses for being here today. I'm chairing this hearing for 
Senator Edward Kennedy, a champion of national service, and a 
chief sponsor of the Serve America Act. As always, I'm happy 
and honored to lead the charge in his absence.
    I've been called the Godmother of national service. 
Wherever I go, people of all ages tell me they want to serve. 
They want to be part of an effort to improve society. We've got 
our economic stimulus. Now it's time to give the American 
people a social.
    Talking about national service legislation is especially 
poignant for me. Last month it will have been 20 years since I 
introduced my national service legislation that eventually 
evolved into AmeriCorps. Service has always been dear to me. 
After grad school, I answered President Kennedy's call to 
service. I took my Master's in social work, and went down to 
the VISTA training center to teach volunteers how to be 
effective in the communities they serve. Seeing that group of 
determined people making a difference through gumption and hard 
work really made an impact on me. It was a wonderful 
experience. One that has colored everything I've done since. 
It's a special thing to answer a President when he asks you to 
serve.
    We're here today to talk about the next generation of 
national service. How we can refresh, re-invigorate and reform 
our national service programs to meet the challenges we face 
today. Senators Kennedy and Hatch have written an excellent 
bipartisan bill. National service has always been bipartisan. 
FDR put his mark on national service through his Civilian 
Conservation Corps, which put people back to work conserving 
our public lands. President Kennedy called the Nation to serve 
with his Peace Corps. President Johnson had his VISTA program 
to get young people to fight the war on poverty. President 
George H.W. Bush founded his ``Points of Light'' to leverage 
nonprofits in doing community work. President Clinton has his 
AmeriCorps.
    The Kennedy/Hatch Serve America Act expands national 
service so that we can increase the number of national 
volunteers from 75,000 to 250,000. But this bill doesn't just 
allow more people to serve. It asks people to help solve 
specific challenges in the areas where our Nation continues to 
struggle: we ask our high school students to join service-
learning programs to reduce school drop-out rates, improve our 
neighborhood parks, and keep our communities clean through 
local recycling efforts. We want to set our young Americans on 
a path to lifetime service. We ask our college graduates to 
give a year to a targeted service effort and help us tackle 
America's education, health, energy and poverty problems. We 
ask our retirees to help us value their skills and experiences 
and make service work for them.
    We'll leverage Federal dollars to help them transition into 
service jobs by providing an ``Encore Fellowship'' to 
incentivize service for an older generation that remembers 
giving back isn't just nice to do, it's the right thing to do. 
We ask our service alumni to give once more by enlisting in a 
Reserve to be deployed during times of national crisis or need. 
We ask our skilled professionals to engage in short-term 
service in developing countries to improve people's living 
standards, and to help rebuild America's standing in the world. 
We ask our successful and dynamic non-profits to increase their 
capacity and bring their innovative ideas to scale.
    This isn't just about new programs and new opportunities. 
It's about answering the demands of a public that isn't just 
saying they want to give back, they're screaming for the 
opportunity. Last year 25,000 college seniors applied for a 
slot in Teach for America to teach 2 years in our Nation's most 
challenging schools. There were only 4,000 slots. The Peace 
Corps received approximately 13,000 applications last year for 
less than 4,000 slots. And in the last 2 years, young people 
across the country volunteered their time and effort to a cause 
fueled by optimism and hope even though the outcome was 
uncertain. I'm happy to say they got a handsome return on their 
work on Nov. 4. Now we're blessed with the challenge of 
harnessing this surge in goodwill and renewing the call to 
service that inspired my generation, the President Kennedy 
generation.
    I think this legislation is a way to revive this spirit of 
volunteerism and service to our country. I think it is a way to 
harvest what I'm calling the ``Obama effect.'' There's this new 
fascination with civic engagement that President Obama inspired 
throughout his campaign. This last election unleashed an 
incredible energy. People want to know how they can give, how 
they can help, how they can make a difference. Our President's 
actions speak to the people. When our President says that 
national and community service is important, and that it has a 
positive impact both on communities and the volunteers who 
serve in them, he's speaking from experience.
    And it's affecting people of all ages and all walks of 
life. Last summer, I was talking to a veteran teacher in 
Baltimore who usually had to push for 10 kids to come to her 
summer math classes. Last summer that changed. She had a 
waiting list of more than 100 kids.
    This teacher asked one of the young boys, ``what do you 
want to be? '' He said, ``I want to be smart.'' And when she 
asked him what he wanted to be smart for, this young boy 
replied: ``I want to be smart because of Obama. I look at Obama 
and he can do it. I want to do it, too. But I know I've gotta 
start out wanting to be smart.''
    The teacher left the room and started crying. In her 25 
years in the Baltimore Schools 1 system, no student had ever 
said, ``I want to be smart.'' So Obama's reaching our students. 
He reached the people last November. He's even reached Congress 
by asking us to send the Serve America Act bill to his desk. 
Let's give the public a chance to express the habits of the 
heart that were the foundation of this country: neighbors 
helping neighbors, communities sticking together.
    President Obama has asked us to move quickly. And we will. 
But we also know process is important. And we need to go 
through the regular order--hearing from experts, hearing from 
Republicans and Democrats. I'm looking forward to a mark-up 
next week. But this hearing is an important step and in keeping 
with the tenor set by majority leader Reid. Let's move forward 
together.

    Senator Mikulski. In the interest of time, because votes 
might be coming at 4 p.m., I just simply want to do this for 
Senator Kennedy. Let the record show that on Sunday night, 
there was a tribute to Senator Kennedy at the Kennedy Center at 
which he received the Profile in Courage. They sang The Man 
from La Mancha's ``The Impossible Dream.''
    Well, today, we are here to make sure the dream is 
possible. So, in Senator Kennedy's own words, he wanted us to 
say:

          ``Many years ago, on the fifth anniversary of the 
        Peace Corps, I asked one of those young Americans why 
        had they volunteered, and I will never forget the 
        answer. They said it was the first time someone asked 
        me to do something for my country.
          ``Now it is time again to ask what you can do for 
        your country. Americans, young and old, are looking for 
        new ways to serve their communities and give back to 
        their country. This hearing will enable us to learn new 
        and better ways to provide opportunities to serve. 
        Service has always been a bipartisan goal, and our 
        hearing today continues that tradition.
          ``From President Kennedy's creation of the Peace 
        Corps to President George H.W. Bush's Points of Light 
        to President Clinton's AmeriCorps, presidents of both 
        parties have contributed their own ideas. I commend 
        President Obama for making an early priority of his 
        Administration to expand service opportunities.
          ``In 1990, working with the first President Bush, our 
        committee approved the original National and Community 
        Service Act. Many of those who worked on it are here 
        today, working together. Senator Hatch, who has 
        committed a great deal of time and effort to national 
        service, and Senator Mikulski, who planted the seeds 
        for AmeriCorps. I am proud to work with both of them on 
        this bipartisan service bill, and I commend Senator 
        Enzi for his support as we guide this bill through.
          ``What the Serve America Act proves is that service 
        can make a great deal of difference in tackling 
        problems if we focus on specific challenges. Service 
        opportunities early in life can put young people on a 
        path to a lifetime of service. More and more older 
        Americans want to put their skills and experience to 
        work for their community and for their country.
          ``And forward-thinking social entrepreneurs are 
        coming up with their own effective ways of tackling 
        some of our greatest challenges and, at the same time, 
        creating more social capital, which is the true 
        investment in our communities.

          ``Now is the time to act on what we learned. This 
        legislation will increase service opportunities, and we 
        will be able to create the next generation of 
        volunteers.''

    Senator Kennedy concludes by saying,

          ``National service has been a cause of mine for many 
        years, and the time is right today to do much more. I 
        look forward to working closely with my colleagues on 
        the committee and the President to strengthen this 
        service.''

    So this is for the record.
    This bill, of course, will be the Kennedy-Hatch bill.
    Senator Enzi, I would like to turn to you for your opening 
statement and then to Senator Hatch, as the lead Republican 
sponsor, for his statement. Then we will go to our witness 
panel.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Madam Chairwoman, and thank you 
for holding this important hearing today.
    I want to extend my gratitude to Senator Hatch for his 
leadership on these issues and congratulate him on his good 
work for the Serve America Act. Senator Hatch has been a 
tireless advocate for increased opportunities for volunteer 
service. He has been the chairman of this committee before. He 
and Senator Kennedy have worked on this bill before.
    It was a nice compliment paid to the two of them by the 
President in the joint session speech that was given, where the 
President asked for this to be named after the two of them. And 
we should respect that wish, and they deserve it.
    We look forward to the swift return of Senator Kennedy, for 
whom national service has been a lifelong pursuit. He has done 
so many wonderful things, and we do miss him here.
    A comprehensive reauthorization of our national service 
statutes is long overdue. These programs haven't received a 
hard look in over 15 years. We have an opportunity with this 
hearing to identify the areas where reforms are needed, where 
waste can be eliminated, and where we can responsibly expand 
our efforts.
    As the only accountant in the Senate, I am always looking 
for ways to strengthen the management and fiscal accountability 
of Federal programs. Specifically, I have a continued interest 
in improving the ability of small and rural programs to 
effectively reach rural communities. As the Senate considers 
how to streamline funding and minimize bureaucracy, we must 
keep in mind the needs of rural programs and the communities 
they serve.
    Also, I am concerned that a significant portion of the 1 
percent set aside for programs serving Native American 
communities has not been used. Too often, these communities 
experience the most extreme needs for education, health, and 
workforce services.
    The programs in the National and Community Service Act and 
the Domestic Volunteer Service Act can play an important role 
in improving the quality of life in Native American 
communities, and we must improve their access to these 
programs.
    I am encouraged by the work that is being done in Wyoming 
and across the country by volunteers in the Senior Corps 
program. In Wyoming, over 1,000 people a year--and we only have 
half a million people in our State to begin with--participate 
as senior companions, foster grandparents, or community 
volunteers. They perform services such as conducting safety 
patrols and participating in environmental cleanup projects.
    In Wyoming, the Congressional Award Council connects young 
people to service opportunities and sponsors an award ceremony. 
It does not receive any Federal dollars, but it has been wildly 
successful.
    One example is in Cheyenne, where young people are 
conducting CPR and first aid classes and providing disaster 
preparedness training in the community. For thousands of hours 
of service, they receive a Bronze medal or a Silver medal and, 
finally, a gold medal for their hours.
    Across the country, there are now alumni associations of 
these congressional award winners who put on spectacular 
programs in their State for no award whatsoever. It is just a 
habit of service that has been developed through this wonderful 
program. The gold medal recipients do have a special 
opportunity to travel to Washington, DC, in June and receive 
their medals. The importance of these opportunities can't be 
overstated.
    This hearing is an important starting point for the 
reauthorization of our national service laws. I look forward to 
hearing the testimony of our witnesses today. Your input is an 
important part of the legislative process.
    I am confident that we can continue to work in a bipartisan 
way, incorporating the good ideas that Senators Hatch and 
Kennedy have put together, and get a bill to the President in 
the next few weeks.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Madam Chairwoman, thank you for holding this very important 
hearing today. I want to extend my gratitude to Senator Hatch 
for his leadership on these issues, and congratulate him on his 
good work in the Serve America Act. Senator Hatch has been a 
tireless advocate for increased opportunities for volunteer 
service. And we look forward to the swift return of our friend 
Senator Kennedy, for whom national service has been a life-long 
pursuit.
    A comprehensive reauthorization of our national service 
statutes is long overdue. These programs have not received a 
hard look in over 15 years. We have an opportunity with this 
hearing to identify the areas where reforms are needed, where 
waste can be eliminated, and where we can responsibly expand 
our efforts. As the only accountant in the Senate I am always 
looking for ways to strengthen the management and fiscal 
accountability of Federal programs.
    Specifically, I have a continued interest in improving the 
ability of small and rural programs to effectively reach rural 
communities. As the Senate considers how to streamline funding 
and minimize bureaucracy, we must keep in mind the needs of 
rural programs and the communities they serve.
    Also, I am concerned that a significant portion of the 1 
percent set-aside for programs serving Native American 
communities has not been used. Too often these communities 
experience the most extreme needs for education, health, and 
workforce services. The programs in the National and Community 
Service Act, and the Domestic Volunteer Service Act, can play 
an important role in improving the quality of life in Native 
American communities, and we most improve their access to these 
programs.
    And I am encouraged by the good work that is being done in 
Wyoming and across the country by volunteers in the SeniorCorps 
program. In Wyoming over a 1,000 people a year participate as 
senior companions, foster grandparents or community volunteers. 
They perform services such as conducting safety patrols and 
participating in environmental clean-up projects.
    In Wyoming, the Congressional Award Council connects young 
people to service opportunities and sponsors an award ceremony. 
It does not receive any Federal dollars, but it has been wildly 
successful. One example is in Cheyenne where young people are 
conducting CPR and first-aid classes, and providing disaster 
preparedness training in the community.
    Each year the Council sponsors an award ceremony in Wyoming 
where members of our congressional delegation award 
Certificates and Bronze and Silver medals. Gold medal 
recipients have the special opportunity to travel to 
Washington, DC in June to receive their medals.
    The importance of these opportunities cannot be overstated.
    This hearing is an important starting point for the 
reauthorization of our national service laws. I look forward to 
hearing the testimony of our witnesses today. Your input is an 
important part of the legislative process. I am confident that 
we can continue to work in a bipartisan way, incorporating the 
good ideas that Senators Hatch and Kennedy have put together, 
to get a bill to the President in the next few weeks.

    Senator Mikulski. Thank you, Senator Enzi, for that 
excellent opening statement.
    Senator Hatch.

                       Statement of Senator Hatch

    Senator Hatch. Well, thank you, Madam Chairman.
    First and foremost, I would like to thank you personally 
for giving me an opportunity to make a statement at the opening 
of this proceeding. I would also like to thank you for chairing 
this hearing and, of course, your willingness to take charge of 
this hearing in the absence of our dear friend Senator Kennedy.
    Though Senator Mikulski is able to the task, I must say 
that given the subject matter we are discussing today, I don't 
think Senator Kennedy's absence will go unnoticed. He would be 
here if he could, and he will be here in the future.
    It was over 2 years ago that I approached Senator Kennedy 
and suggested that we create a system to encourage our citizens 
to devote significant time to volunteer service. At practically 
that same time, I met with Pastor Rick Warren, who came and 
visited with me and thought this would be a good idea and has 
made some helpful suggestions.
    As a young man, I served a 2-year volunteer mission for my 
faith during which I learned firsthand the benefits of service. 
It was the greatest period of my life. I wouldn't trade that 
for being a U.S. Senator because I gave 2 solid years, 18 hours 
a day, helping people, and it was a really wonderful thing for 
me. I want to give that opportunity to as many young people as 
we can, though in a different way, through this legislation.
    Also Sargent Shriver--I don't know how many of you have 
read ``Sarg,'' the biography of Sargent Shriver, but it is a 
worthwhile read. I have read it, and both Sargent Shriver and 
Eunice have been wonderful friends over the years.
    In fact, in the early days, when I became chairman of this 
committee and Senator Kennedy decided to give me a little bit 
of a rough time at that time and whenever he gave me too rough 
a time, I would say, ``OK, Teddy, I am going to go see 
Eunice.'' ``Oh, no. Don't do that. Don't do that,'' he would 
say.
    [Laughter.]
    Because he knew that Eunice would work him over, and we 
have had a lot of fun through the years doing that with each 
other. Fortunately, none of this was necessary on this bill.
    I came to Senator Kennedy in hopes that we could find ways 
to give similar opportunities to more and more people across 
the spectrum--from the veteran who returns home and wants to 
continue to serve to the traditional volunteer in a community 
who wants to help their neighbor in times of need. Though it 
has taken some time and no small amount of work, these were the 
humble beginnings of the Serve America Act.
    As we worked on this legislation, I personally had a list 
of priorities. I also have to say that Senator Kennedy agrees 
with these.
    We wanted to ensure that we weren't just creating another 
Federal program. We didn't want to add another level of 
government bureaucracy in order to encourage volunteer service, 
but to work through existing community-based efforts that 
represent one of the finest and most uniquely American 
traditions in the world.
    In addition, if we were going to work within the framework 
of existing community and national service programs, I was 
insistent that we improve upon it by adding more direction and 
accountability for results, to set some goals and work to 
achieve them and to increase the role of States and small 
communities in these programs.
    We also wanted indicators of civic health, just as we have 
indicators of the state of our economy. I believed that doing 
so would lev-
erage even more volunteers and investment at the local level 
with the belief that people closest to the actual needs, people 
who share your zip code and live in your communities, 
understand best how to help.
    Finally, we wanted our legislation to include enough 
flexibility to encompass different types of service. We wanted 
to see opportunities increase for individuals to follow their 
own paths when serving in their communities.
    We also wanted to encourage both full-time service and 
traditional episodic service, and we wanted opportunities for 
Americans of all ages, from children in schools to employees in 
workplaces to older Americans as they move to encore or second 
careers looking for more meaning in their lives. Everyone can 
serve.
    All of this was a tall order, to be sure, but I think that 
with the Serve America Act, we have drafted a bill that will 
address all of these profiles and priorities.
    As President Ronald Reagan once said, ``The work of 
volunteer groups throughout our country represents the very 
heart and soul of America. They have helped make this the most 
compassionate, generous, and humane society that ever existed 
on the face of the Earth.''
    Volunteerism and selfless service are, in my opinion, 
fundamental. They are fundamental American virtues, and they 
will continue to be so with or without the aid of the 
Government.
    Now I understand those that do not see a significant role 
for the Federal Government increasing volunteer service, and I 
share the concerns of those who want to ensure that we spend 
tax dollars in a sensible way. Quite frankly, I don't think 
that such concerns are good reasons to oppose the Serve America 
Act.
    Currently, roughly 75,000 Americans participate in national 
service every year, receiving modest living stipends and even 
smaller education awards. However, the efforts of those 75,000 
help to leverage more than 2 million other traditional 
volunteers, who receive nothing from government to work on the 
same projects.
    In addition, they lead to hundreds of millions of dollars 
every year in non-Federal investment in service organizations 
and charities. None of these additional volunteers receive any 
aid or awards from the Federal Government, and none of the 
resulting private donations are underwritten by the Federal 
Treasury.
    While the investment in the existing programs is not 
insignificant, most of the real benefits are never seen in the 
Federal budget. They are real and the Serve America Act would 
greatly improve upon them.
    Now this is the type of return we expect to see on this 
relatively modest investment, especially at a time when youth 
unemployment is at 21 percent and unemployment among older 
Americans is at its highest level since 1983. These are two 
populations that community and national service 
disproportionately engages at low cost to government with no 
new bureaucracy.
    Madam Chair, the programs in the Serve America Act are all 
designed to foster new forms of service and to leverage 
increased volunteerism from organizations at the local, State, 
and national level and to mobilize skilled American 
professionals to meet urgent needs abroad.
    The bill establishes programs that will allow individuals 
and small nonprofits to come up with innovative and creative 
solutions to addressing national and international problems, 
maintaining the role of communities and States as laboratories 
for invention. Rather than providing direct aid to the 
economically disadvantaged, the bill will encourage citizens, 
private organizations, and communities to work together to 
empower those in need.
    In the long run, I believe that the Serve America Act will 
allow communities to help themselves, meaning that the 
Government will ultimately be asked to do less and less.
    Once again, I would like to thank the Chair for the 
opportunity to chat about this today, and I would like to just 
announce that I am really pleased that my friend John McCain 
has agreed to sponsor this and help push it through. It means a 
lot to me, and I think he is one of the great Americans, one of 
the greatest Americans that we have in this day and age. With 
both him and Senator Kennedy on this bill, I think we should do 
all right. Don't you think, John.
    [Laughter.]
    Thank you so much, Madam Chairman.
    [The prepared statement of Senator Hatch follows:]

                  Prepared Statement of Senator Hatch

    First and foremost, I'd like to thank Senator Mikulski for 
giving me an opportunity to make a statement at the opening of 
this proceeding. I'd also like to thank the distinguished 
Senator from Maryland for her willingness to take charge of 
this hearing in the absence of our dear friend Senator Kennedy. 
Though Senator Mikulski is able for the task, I must say that, 
given the subject matter we're discussing today, I don't think 
Senator Kennedy's absence will go unnoticed.
    It was over 2 years ago that I approached Senator Kennedy 
and suggested that we create a system to encourage our citizens 
to devote significant time to volunteer service. As a young 
man, I served a 2-year full-time mission for my church, during 
which I learned firsthand the benefits of service--not only for 
the beneficiaries of the service, but particularly for those 
who volunteer their time in the service of others. Likewise, I 
think we've all witnessed with awe those who sacrifice and 
volunteer to serve in the military and get the opportunity to 
be part of something bigger than themselves.
    I came to Senator Kennedy in hopes that we could find ways 
to give similar opportunities to more and more people across 
the spectrum--from the veteran who returns home and wants to 
continue to serve, to the traditional volunteer in a community 
who wants to help their neighbor in times of need. Though it 
has taken some time and no small amount of work, these were the 
humble beginnings of the Serve America Act.
    As we worked on this legislation, I had a list of 
priorities. Foremost, I wanted to ensure that we weren't 
creating just another Federal program. I didn't want to add 
another level of government bureaucracy in order to encourage 
volunteer service, but to work through existing, community-
based efforts that represent one of the finest and uniquely 
American traditions in the world.
    In addition, if we were going to work within the framework 
of existing community and national service programs, I was 
insistent that we improve upon it by adding more direction and 
accountability for results--to set some goals and work to 
achieve them and to increase the role of States and small 
communities in these programs. I also wanted indicators of 
civic health, just as we have indicators of the State of our 
economy. I believed that doing so would leverage even more 
volunteers and investment at the local level, with a belief 
that people closest to the actual needs--people who share your 
zip code, and live in your community--understand best how to 
help.
    Finally, I wanted our legislation to include enough 
flexibility to encompass different types of service. I wanted 
to see opportunities increased for individuals to follow their 
own paths when serving their communities. I also wanted to 
encourage both full-time service and traditional episodic 
service. And I wanted opportunities for Americans of all ages--
from children in schools, to employees in workplaces, to older 
Americans as they move to encore or second careers looking for 
more meaning in their lives. Everyone can serve.
    All of this was a tall order, to be sure. But, I think 
that, with the Serve America Act, we've drafted a bill that 
will address all of these priorities.
    As President Ronald Reagan said:

          ``The work of volunteer groups throughout our country 
        represents the very heart and soul of America. They 
        have helped make this the most compassionate, generous, 
        and humane society that ever existed on the face of 
        this earth.''

    Volunteerism and selfless service are, in my opinion, 
fundamental American virtues and they will continue to be so 
with or without the aid of the Government. I understand those 
that do not see a significant role for the Federal Government 
increasing volunteer service and I share the concerns of those 
who want to ensure that we spend tax dollars in a sensible way. 
But, quite frankly, I don't think that such concerns are good 
reasons to oppose the Serve America Act.
    Currently, roughly 75,000 Americans participate in national 
service every year, receiving modest living stipends and even 
smaller education awards. However, the efforts of those 75,000 
help to leverage more than 2 million other traditional 
volunteers--who receive nothing from government--to work on the 
same projects. In addition, they lead to hundreds of millions 
of dollars every year in non-Federal investment in service 
organizations and charities. None of these additional 
volunteers receive any aid or awards from the Federal 
Government and none of the resulting private donations are 
underwritten by the Federal treasury. So, while the investment 
in the existing programs is not insignificant, most of the real 
benefits are never seen in the Federal budget, but, they are 
real and the Serve America Act will greatly improve upon them. 
This is the type of return we expect to see on this relatively 
modest investment, especially at a time when youth unemployment 
is at 21 percent and unemployment among older Americans is at 
its highest levels since 1983. These are two populations that 
community and national service disproportionately engages at 
low cost to government with no new bureaucracy.
    Madame Chair, the programs in the Serve America Act are all 
designed to foster new forms of service and to leverage 
increased volunteerism from organizations at the local, State, 
and national level, and to mobilize skilled American 
professionals to meet urgent needs abroad.
    The bill establishes programs that will allow individuals 
and small non-profits to come up with innovative and creative 
solutions to addressing national and international problems, 
maintaining the role of communities and States as laboratories 
for invention. Rather than providing direct aid to the 
economically disadvantaged, the bill will encourage citizens, 
private organizations, and communities to work together to 
empower those in need. In the long run, I believe that the 
Serve America Act will allow communities to help themselves, 
meaning that the government will ultimately be asked to do less 
and less.
    Once again, I'd like to thank the chair for the opportunity 
to speak today and I look forward to hearing the comments from 
both distinguished panels.

    Senator Mikulski. I want to recognize Senator McCain. He 
was one of the founding fathers of our original commission. 
Senator McCain, I believe that it was in 1990.
    We weren't going to do a lot of opening statements in the 
interest of time, but when you have got a founding father and a 
founding mother--the founding mother has got a chance to talk, 
so does the founding father.
    [Laughter.]
    So founding father.

                      Statement of Senator McCain

    Senator McCain. I thank you, Madam Chairman and thank you 
for your commitment on this issue.
    I thank Senator Enzi and, of course, my friend Senator 
Hatch.
    As you mentioned, I have been involved in this issue for 
quite a while. Senator Bayh and I introduced somewhat similar 
legislation in previous years, and I appreciate very much 
Senator Hatch and Senator Kennedy's effort. I look forward to 
hearing from the witnesses today, and I think the time is right 
for such a measure.
    I thank you, Madam Chairman.
    Senator Hatch. Madam Chair, could I put a statement in the 
record from our lieutenant governor in Utah, who would have 
been here except for the legislative session?
    Senator Mikulski. Absolutely. Without objection.
    [The information previously referred to follows:]
 Prepared Statement of Gary Herbert, Lieutenant Governor, State of Utah
    Madame Chair, distinguished Senators, I welcome the opportunity to 
give a statement on the important matters before the committee today. I 
greatly appreciate the invitation to give a statement and I regret 
that, during these waning days of the Utah legislative session, I am 
unable to attend in person.
    My name is Gary Herbert and currently serve as the Lieutenant 
Governor for the State of Utah. One of my many duties in this position 
is to oversee the Utah Commission on Volunteers, which administers the 
State's efforts in existing national service programs as well as those 
originating from within the State.
    Anyone who has spent time in Utah and among its people knows that 
service, generosity, and an outstanding work ethic are values that are 
deeply ingrained in our State's culture. Tens of thousands of Utahns 
participate every year in various service projects and initiatives. In 
2007 and 2008, more than 44,000 people participated in 88 different 
national service projects throughout the State. In the last year of 
accounting, more than 7,200 seniors in Utah participated in Senior 
Corps programs. During that same time, nearly 1,000 Americorps 
participants did their work in our State and more than 35,000 students 
benefited from Learn and Serve America. Indeed, projects funded through 
national service initiatives have greatly enriched Utah's philanthropic 
landscape.
    I was greatly encouraged to see Senators Hatch and Kennedy 
introduce the Serve America Act because, though we've enjoyed much 
success in our State's volunteer efforts, the ailing economy has been 
particularly hard on the non-profit sector, leading to a decline in 
services offered by charities and community organizations. This 
landmark legislation will help our State by supporting non-profit 
organizations that are hurting as a result of the evaporation of 
wealth, the State and local budget crunch, and increasing demands for 
services that accompany difficult economic times.
    The bill will also increase the numbers of people in our State who 
participate in full-time, part-time and traditional volunteer service. 
With unemployment among youth and older Americans at very high levels 
throughout the country, investing in the community-based infrastructure 
to permit thousands of volunteers from Utah to give back to their 
communities and State makes perfect sense.
    As in other States, in Utah, we need teachers in high-need schools, 
mentors and tutors for disadvantaged youth, extra hands in soup 
kitchens and homeless shelters, and volunteers in senior centers, 
nursing homes and nursery schools. The non-profit and church-sponsored 
organizations that work in our communities to address these issues have 
been hit hard by the economy. Yet, I believe that many Utahns are 
willing to be put into productive work to meet these growing needs and 
the Serve America Act will help us make great strides to do so. &
    I applaud Senator Hatch's leadership on this important legislation, 
which will permit more Americans to do good works in hard times and 
move from talk of bailouts to a spirit of overcoming challenges in 
America.

     Senator Hatch. Appreciate it.
    Senator Mikulski. We are now going to turn to both the 
chair and the vice chair of the Corporation of National and 
Community Service. When they are concluded, I am going to ask 
our other panelists to come up and join them and make their 
testimony because we are going to be voting at 4 p.m.
    We will just open up the questions to you, as essentially 
our board, and then also to the people who bring both 
experience and some new ideas.
    I would like to turn now to Alan Solomont, the board of 
directors and chair of the corporation, and then to Stephen 
Goldsmith, the vice chair for the corporation. Mr. Solomont is 
the CEO of Solomont Bailis Ventures in western Massachusetts, 
and Stephen Goldsmith is the Daniel Paul Professor of 
Government and the director of Innovations in American 
Government at the Harvard Kennedy School of Government in 
Cambridge, MA.
    Gentlemen.

   STATEMENT OF ALAN SOLOMONT, BOARD OF DIRECTORS AND CHAIR, 
 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE, CHAIRMAN AND 
           CEO, SOLOMONT BAILIS VENTURES, WESTON, MA

    Mr. Solomont. Thank you, Madam Chairwoman, Ranking Member 
Enzi, members of the committee.
    Good afternoon, and thank you for this opportunity to 
testify and for this committee's longstanding bipartisan 
support for national service.
    I especially thank you, Chairwoman, the founding mother of 
national service--and the founding father--for your passionate 
advocacy and strong oversight over the past 16 years. We are 
grateful that you have put national service on the committee's 
agenda so early in the 111th Congress.
    I appear before you today as the newly elected chairman of 
the board of the Corporation for National and Community 
Service. I was appointed to the board by President Clinton in 
2000, reappointed by President Bush in 2007, and elected 
chairman last month, stepping into the very large shoes of my 
good friend Steve Goldsmith.
    Having served on the board for this long, I know there have 
been times when you have had concern about the corporation's 
management and leadership. I want you to know that we heard you 
then, and we hear you now. We remain committed to transparent 
and rigorous management of the resources with which we have 
been entrusted. Sound management and accountability remain a 
top focus of our bipartisan board and senior staff.
    Let me acknowledge one member of the committee who is not 
here and who happens to be my Senator. I would not be here if 
it weren't for Senator Kennedy, who sponsored the original 
national service legislation and who, along with you, Senator 
Hatch, is driving the next generation of service envisioned in 
the Serve America Act.
    I was very pleased when Senator Kennedy received the 
Profiles in Courage award from his niece Caroline that she 
mentioned his leadership in national service.
    Today's hearing comes at a pivotal moment for national and 
community service. The economic crisis is causing hardship for 
millions of Americans, and no one sector of society can pull us 
out of it.
    We have a President who understands the power of citizen 
action and who has pledged to make service a central cause of 
his presidency. We have bipartisan support for a dramatic 
expansion in service, and we have a new generation, known as 
``millennials,'' that is looking to participate in something 
larger than themselves by serving their communities and their 
country.
    National service is about engaging citizens and solving 
community problems. That idea is as old as America, but it is 
made new with each generation. As each generation realizes the 
impact of service, it also learns that service is 
transformative. I know because, as Senator Hatch mentioned, it 
was also for me.
    After I graduated from college, I moved to Lowell, MA, to 
be a community organizer. Lowell, the birthplace of the 
Industrial Revolution, by the 1970s was down on its luck. Our 
organizing project helped tenants avoid eviction and homeowners 
protect their neighborhoods. We worked with businesses, 
churches, and labor unions to save jobs.
    I worked alongside then city councilor Paul Tsongas and a 
young candidate for Congress, John Kerry. Our organizing made a 
real difference in helping Lowellians cope with the economic 
crisis, but it also had a profound impact on my life. I went on 
to a career in business, but everything I have done since then 
has been informed by what I learned from that experience, 
especially my belief that things can change for the better if 
we work together.
    This ethic of service affects every generation, and the 
next generation of young people is especially open to it. I 
believe that civilian service has the potential to do, in part, 
for this generation what military service did for the 
``greatest generation.''
    Through their military service, the men and women of the 
greatest generation were exposed to the great diversity of 
America. Their service bound them together and fueled their 
patriotism, made them better citizens, and made America a 
stronger Nation.
    Today, we are at an inflection point, the beginning, 
hopefully, of a new era of responsibility and citizen 
engagement. We saw this in the 2008 presidential campaign when 
millions of Americans from both political parties became part 
of the process for the first time. We are seeing it in 
volunteer centers and community organizations as Americans 
respond to the economic downturn and to the President's call to 
service.
    The Serve America Act, first introduced in the 110th 
Congress and re-introduced as S. 277 by Senator Kennedy and 
Senator Hatch, will grow national service to meet these 
challenges. It will invest in and expand the civic and 
volunteer infrastructure to support this growth. The bill sets 
the corporation on a path to enlist 250,000 members, and it 
strengthens service opportunities for people of all ages.
    The March 6, 2009, letter from the Office of Management and 
Budget lays out the Administration's priorities for national 
service. I would like to highlight a few.
    The Administration supports simplifying funding streams, 
management structures, and application and reporting processes. 
Part of the simplification is expanded authority to use fixed-
amount grants that simplify reporting requirements while 
ensuring more robust performance accountability and more 
uniform collection of impact data.
    Any discussion about the next generation of service should 
include talking about innovation. Problems our Nation faces 
can't be solved by government alone. They require all hands on 
deck.
    Though the corporation's role has traditionally been to 
choose the best programs and ensure accountability, it also can 
play a role in supporting and investing in new ideas. The Serve 
America Act provides for that through the Community Solutions 
Fund, which will test new ideas, leverage private support, and 
expand successful programs to scale.
    The Administration is pleased that the Serve America Act 
also seeks to improve service learning opportunities and new 
service opportunities for baby boomers and older Americans. As 
someone who has been an outspoken advocate for Senior Corps, I 
appreciate the value and impact of the Senior Corps programs. 
Some of them, begun in the 1960s in conjunction with the war on 
poverty, have done a terrific job.
    As we anticipate the coming wave of aging baby boomers, now 
is the time to modernize these programs for the 21st century. 
The Administration has made a commitment to expand these 
programs, but we cannot provide seniors with the service 
opportunities they deserve without introducing competition, 
greater accountability, and innovation.
    Finally, the Administration would like to see an increase 
in the maximum amount of the Segal AmeriCorps Education Award. 
Named for a dear friend and one of the architects of national 
service, the award has not been adjusted since the program's 
inception in 1993.
    I thank you for this opportunity to share a bit of my own 
experience and some of the Administration's priorities on 
national service. I appreciate your support. I truly believe 
that we have the opportunity not only to transform lives and 
communities, but to change our country.
    I look forward to working with you and to answering your 
questions.
    [The prepared statement of Mr. Solomont follows:]
                  Prepared Statement of Alan Solomont
    Chairwoman, Ranking Member Enzi, and members of the committee, good 
afternoon. Thank you for this opportunity to testify, and for this 
committee's longstanding bipartisan support for national service. I 
especially thank you, Chairwoman--the Godmother of National Service--
for your passionate advocacy and strong oversight over the past 16 
years.
    We are grateful that you have put National Service on the 
committee's agenda so early in the 111th Congress. I appear before you 
today as the newly elected Chairman of the Board of the Directors of 
the Corporation for National and Community Service. I was appointed to 
the Board by President Clinton in 2000, reappointed by President Bush 
in 2007, and elected as Chairman last month, stepping into the shoes of 
my good friend Stephen Goldsmith, who you will hear from shortly.
    Having served on the Board for this long, I know that there have 
been times when you had concerns about the Corporation's management and 
leadership. I want you to know that we heard you then, and we hear you 
now. We remain committed to transparent and rigorous management of the 
resources with which we've been entrusted. Sound management and 
accountability remain the top focus of our bipartisan Board and senior 
staff.
    I want to acknowledge one member of the committee who is not here 
and who happens to be my Senator. I would not be here if it weren't for 
Senator Kennedy--who sponsored the original national service 
legislation, and who--along with you and Senator Hatch--is driving the 
next generation of service envisioned in the Serve America Act.
    Today's hearing comes at a pivotal moment for national and 
community service:

    <bullet> The economic crisis is causing hardship for millions of 
Americans, and no one sector of society can pull us out of it.
    <bullet> We have a President who understands the power of citizen 
action and who has pledged to make service a central cause of his 
presidency.
    <bullet> We have bipartisan support for a dramatic expansion in 
service.
    <bullet> And we have a new generation--known as the Millennial 
Generation--that is looking to participate in something larger than 
themselves by serving their communities and their country.

    To me, national service is all about engaging Americans in solving 
community problems. That idea is as old as America, but it is made new 
with each generation. And as each generation realizes the impact of 
service, it also learns that service is transformative. I know because 
it was for me.
    After graduating from college in the 1970's, I moved to Lowell, MA 
to be a community organizer. Lowell was the birthplace of the 
Industrial Revolution, but by the 1970's what was once a prosperous 
mill town was now down on its luck. Our organizing project helped 
tenants avoid eviction and homeowners protect their neighborhoods. We 
worked with businesses and churches and labor unions to save jobs. I 
worked alongside then-City Councilor Paul Tsongas, and a young 
candidate for Congress, John Kerry.
    The organizing we did made a real difference in helping Lowellians 
cope with the economic crisis. But it also had a profound impact on my 
life. I went on to a career in business, but everything I've done since 
then has been informed by what I learned in Lowell--especially my 
belief that things can change for the better if we work together.
    This ethic of service affects every generation. And the emerging 
generation of young people is especially open to it. I believe that 
civilian service has the potential to do in part for this generation 
what military service did for the ``Greatest Generation.'' Through 
their military service, the men and women of the Greatest Generation 
were exposed to the great diversity of America. Their service bound 
them together and fueled their patriotism--making them better citizens 
and making America a stronger nation.
    Today, we are at an inflection point, the beginning of a new era of 
responsibility and citizen engagement. We saw this in the 2008 
presidential campaign, when millions of Americans from both political 
parties became part of the process for the first time. We saw this on 
Martin Luther King Day when Americans across the Nation honored Dr. 
King's legacy through service. And we're seeing it in volunteer centers 
and community organizations, as Americans respond to the economic 
downturn and to the President's call to service. From Millennials to 
Baby Boomers to the Greatest Generation, Americans want to be part of 
helping their country recover, prosper, and lead.
    The Serve America Act, first introduced in the 110th Congress and 
re-introduced as S. 277 on January 16 by Senators Ted Kennedy and Orrin 
Hatch, will grow national service to meet these challenges. It will 
invest in and expand the civic and volunteer infrastructure to support 
this growth. The bill sets the Corporation on a path to enlisting 
250,000 members and it strengthens service opportunities for people of 
all ages.
    The March 6, 2009, letter from the Office of Management and Budget 
lays out the Administration's priorities for national service. I would 
like to highlight a few provisions discussed in the letter here.
    The Administration supports simplifying funding streams, management 
structures, and application and reporting processes. Part of this 
simplification is expanded authority to use fixed-amount grants that 
simplify reporting requirements, while ensuring more robust performance 
accountability and more uniform collection of impact data.
    Any discussion about the ``next generation of service'' is also an 
opportunity to talk about innovation. The problems our Nation faces 
can't be solved by government alone. They require that all hands be on 
deck. Though the Corporation's role has traditionally been to choose 
the best programs and ensure accountability, it also can play a role in 
incenting and investing in new ideas. The Serve America Act provides 
for that through the Community Solutions Fund, which searches for and 
tests new ideas, leverages private support, and expands successful 
programs to scale.
    The Administration is pleased that the Serve America Act also seeks 
to improve service-learning opportunities and new service opportunities 
for baby boomers and older Americans.
    As someone who has worked with seniors my entire professional life, 
and who has been the Board's advocate for Senior Corps, I appreciate 
the value and impact of Senior Corps. Older Americans are a precious 
resource who bring a lifetime of skills and experience to their 
volunteer work.
    The programs of the Senior Corps, some of which began in the 1960's 
in conjunction with the War on Poverty, have done a terrific job. I 
know that because I have worked closely with Retired Senior Volunteer 
Programs in my business. But as we anticipate the coming wave of aging 
Baby Boomers, now is the time to modernize these programs for the 21st 
century. The Administration has made a commitment to expand these 
programs, but we cannot provide seniors with the service opportunities 
they deserve without introducing competition, greater accountability, 
and innovation into the Senior Corps programs.
    Finally, the Administration would like to see an increase in the 
maximum amount of the Segal AmeriCorps Education Award--named for a 
dear friend who was one of the architects of national service--which 
has not been adjusted since the program's inception in 1993.
    Thank you for this opportunity to share my own experience and some 
of the Administration's priorities on national service. I appreciate 
your support, and I truly believe that we have the potential not only 
to transform lives and communities but to change our country. I look 
forward to working with you and to answering your questions.

    Senator Mikulski. Well, Mr. Solomont, thank you very much 
for your longstanding service with the board. We are going to 
have some questions for you. And some we will be having for the 
record.
    Mr. Goldsmith.

  STATEMENT OF STEPHEN GOLDSMITH, VICE-CHAIR, CORPORATION FOR 
  NATIONAL AND COMMUNITY SERVICE AND DANIEL PAUL PROFESSOR OF 
GOVERNMENT AND DIRECTOR OF THE INNOVATIONS, AMERICAN GOVERNMENT 
                     PROGRAM, CAMBRIDGE, MA

    Mr. Goldsmith. Thank you, Madam Chairman and members of the 
committee.
    Senator Mikulski. Is he wired?
    Mr. Goldsmith. Sounds ominous.
    [Laughter.]
    Thank you, Madam Chairman and members of the committee. It 
is my honor to be here on behalf of this piece of legislation.
    I would also like to say that, Madam Chairman, I remember, 
as a young board chair of this organization, vividly remember 
your admonition about the responsibilities of the board with 
respect to good management, which occasioned in your office 
after an unfortunate pause in the corporation. I think we have 
made steady, but insufficient progress since then, and I hope 
to return to that issue in a minute.
    Let me say that this is an interesting and very important 
time. Both the needs of this country in terms of those who are 
hurting has increased and the interest of young adults and all 
adults in service has also dramatically increased. In just the 
last several months, we have seen a 300 percent increase in 
application for those individuals in America who want to be 
part of AmeriCorps.
    We have a huge need, and we have a huge demand. This bill 
will, in fact, respond to it.
    I would like to just offer, because you have my written 
testimony, a few brief principles. Let me start with a 60-
second anecdote about when I was mayor of Indianapolis. I think 
we have different perspectives perhaps on the role of 
government, but we probably have common agreement that nothing 
helps a community more than the civic engagement of a neighbor.
    When I was mayor, trying to build up our community 
organizations, those organizations, particularly the small 
ones, had a great shot in the arm when they had an AmeriCorps 
or VISTA member who could work with them day-by-day, hour-by-
hour in organizing individuals in that neighborhood. This bill 
will allow many more of those community organizations to 
benefit from that very capacity that this bill adds.
    We have spent the last 8 years trying, as Senator Hatch 
mentioned in his statement, to think about this organization as 
the infrastructure that supports volunteerism. That is why 
these 75,000 AmeriCorps members are responsible for leveraging 
almost 4 million Americans who participate.
    The role of the Federal Government needs to be a respectful 
one that supports community organizations and helps them 
leverage volunteering. We think that that is our mission that 
you have charged us with, and we think that is the reason for 
so much bipartisan support.
    As we go forward, the principles in this bill are 
important, and I would just like to underscore the ones that I 
think are most important. You demand that we be more 
accountable, that we intensify accountability. There are 
specific performance goals in this legislation, much more 
specific than occurred in the original legislation and will 
help hold the organization more accountable.
    We are essentially a pass-through Federal agency. We need 
to hold our recipients accountable for results, but we need to 
be much less intrusive in how they do their work. We need to 
ease the burden on those who receive our dollars.
    They are small organizations, in large part, and they need 
the support. They need to be held accountable, but they need to 
be responded to in a less burdensome way. That is a principle 
as well.
    Third, we have a responsibility to level the playing field. 
As Senator Enzi mentioned, we need to make sure that small 
organizations, rural organizations, faith-based organizations, 
those that have some who are unaccustomed to dealing with the 
Federal Government have an opportunity to participate and 
receive the support of our organization. In addition to easing 
the burden, we need to level the playing field.
    And finally, we need to be better, as Alan mentioned, in 
the way that we manage the organization. We have, over the 
years, spent more and more of our dollars on programs and less 
and less of our dollars on our own infrastructure to manage 
those programs.
    We have a relatively weak foundation. We saw after 9/11 
where the demand for Americans to help in their communities 
exploded, literally, across the country, just good-hearted 
American civic engagement. Our corporation was not equipped at 
the time to handle it.
    We are better off now. More importantly, what this bill 
does is it makes it easier to manage the corporation. It 
removes many of the silos. It provides the resources for those 
support systems that are necessary.
    Madam Chairman, members of the committee, I appreciate the 
charge you have given to the board, and we are pledged to doing 
a first-rate job. We think, as a result of this legislation, 
millions of people will be helped, both those who serve and 
those who receive the services.
    Thank you for your time.
    [The prepared statement of Mr. Goldsmith follows:]
                Prepared Statement of Stephen Goldsmith
    Chairwoman, Ranking Member Enzi, and members of the committee, 
thank you for this opportunity to testify, and for the committee's long 
history of leadership and support for national and community service.
    Now is the right time to update our national service laws and 
unleash the energy and ingenuity of the American people to solve 
community problems. This hearing comes at a critical moment of both 
need and opportunity for our Nation:

    <bullet> The economic downturn is causing hardship for millions of 
Americans--putting more people at risk of unemployment, foreclosure, 
homelessness, abuse, addiction, and other social ills.
    <bullet> The nonprofit sector is reeling from a double whammy of 
increased demand for services at the same time it is experiencing drops 
in giving and public support.
    <bullet> But against this bleak backdrop, there is strong momentum 
for citizen service:

        <bullet>  Last year, 62 million Americans gave 8 billion hours 
        of service to our Nation.
        <bullet>  The number of AmeriCorps applications has shot up in 
        recent months, and volunteer centers and nonprofits are 
        reporting increases in volunteers.
        <bullet>  Millennials are volunteering more than past 
        generations while Boomers will dramatically boost the number of 
        older adult volunteers in the coming decades.
        <bullet>  Leaders in every sector--from corporate CEOs and 
        college presidents to Governors and grantmakers--recognize that 
        service is a proven strategy to tackle tough challenges.
        <bullet>  Social entrepreneurs are redefining service and 
        volunteering, and Web 2.0 technologies are providing new ways 
        for citizens to engage and connect.

    National service has bipartisan support because it was founded on 
common sense, good government principles--devolution, competition, 
accountability, leveraging of non-Federal resources, and public-private 
partnership. We have worked diligently the last 8 years to reposition 
Federal involvement as the human infrastructure that supports 
volunteerism--rather than approaching our work as a method of putting 
Federal workers in local nonprofits.
    Today, our Senior Corps, AmeriCorps, and Learn and Serve America 
programs engage nearly four million Americans in service through more 
than 70,000 community organizations across the Nation, addressing 
issues of poverty, illiteracy, disasters, public safety, independent 
living, and more. These participants have a powerful catalytic effect 
by leveraging hundreds of millions of non-Federal dollars and 
mobilizing community volunteers. Last year, AmeriCorps members 
mobilized 2.2 million additional volunteers, helping thousands of 
nonprofits expand their reach and impact.
    We are also proud that the Corporation supports a wide array of 
organizations, from large national nonprofits like Teach for America, 
Boys and Girls Clubs, and Habitat for Humanity, to faith-based 
organizations like Sisters of Notre Dame and Alliance for Catholic 
Education, to small community groups.
    Approximately 6 years ago, you and Senator Bond challenged the 
board to hold the management more responsible and to improve the 
Administration of the programs. We have made steady progress and 
implemented reforms across the agency to increase efficiency, reduce 
costs, streamline operations, improve program quality, strength grant 
and fiscal monitoring, and build a high-performing workforce. While the 
Corporation's management has improved, there are areas that need 
further strengthening, and management will continue to be the Board's 
top priority.
    To take these programs to the next level of effectiveness, we need 
changes in our authorizing laws. I'd like to highlight a few key 
principles as you move ahead:

    <bullet> We need to intensify the focus on accountability and 
results by tying funding to performance and increasing support for 
rigorous program evaluation, performance measures, and assessments of 
our civic health. Today, the Corporation is a hodgepodge of programs 
pasted together with a set of inconsistent and confusing rules that 
make clarity and transparency difficult and increase overhead costs not 
only to the Corporation but, more importantly, to its grantees. Both 
the Serve America Act introduced by Senator Kennedy and Hatch and the 
GIVE Act passed by the House Education and Labor Committee last 
Congress bring needed reforms.
    <bullet> While we need to do better at demonstrating the impact our 
programs are having, we also need to ease the burden on our grantees by 
streamlining the application and reporting process, combining funding 
pools, and simplifying program management through expansion of fixed-
amount grants.
    <bullet> We need to continue providing a level playing field for 
faith-based and small community organizations, which are doing such 
critical work in our most vulnerable communities. Both the GIVE Act and 
Serve America Act would open up service to more small community 
organizations and rural and underserved areas.
    <bullet> As we intensify the focus on the issues of education, 
health, clean energy, and poverty, we also need to maintain the core 
principles that have been key to AmeriCorps success--flexibility, 
adaptability, and a decentralized approach that gives a key role to 
States in identifying their problems and selecting the organizations 
best able to solve them.
    <bullet> In recent years, the Corporation and our grantees have 
initiated some creative and successful programs with other Federal 
agencies on issues such as prisoner re-entry, early childhood 
education, conservation of our public lands, and more. We should 
encourage more coordination with other Federal agencies.
    <bullet> Finally, the Serve America Act would invest in our civic 
infrastructure by creating a Volunteer Generation Fund and increasing 
the leveraging of community volunteers that are the lifeblood of our 
schools and shelters, hospitals and hotlines.

    Chairwoman Mikulski and members of the committee, the Corporation 
and the entire national service field has come a long way, thanks in 
large part to leadership of this committee. This bill would usher in 
the next generation of service and facilitate civic engagement in a way 
that respects and supports local and individual acts of kindness, 
generosity, and service. We look forward to working with you to restore 
America's communities and its greatness through the active citizenship 
of neighbors.
    Thank you again for this opportunity, and I'd be glad to answer any 
questions.

    Senator Mikulski. Well, we thank both of you for your 
service. You also bring a great deal of experience because this 
is a new century. When we created national service, it was in 
1990. In the 1990s, as we all remember, there was a great deal 
of talk about it being the time of the ``me generation.''
    What we wanted to do on a bipartisan basis was take the 
``me generation'' and begin to transition to a ``we 
generation.'' The demonstration project was meant to test out 
ideas because we didn't want a new bureaucracy. We didn't want 
to have national service meets health and human services, where 
it would be big at the top and skinny at the bottom.
    We wanted to be able to have a minimal Federal and national 
infrastructure and then work with governors who--I know we will 
hear from shortly Governor Racicot--and to make sure that we, 
first of all, had a decentralized approach. One-size-doesn't-
fit-all. And second, that there would be accountability, but 
allow plenty of room for flexibility and creativity.
    We did have a rocking and rolling time. That demonstration 
project led to the creation of AmeriCorps; a more robust 
program under President Clinton. I was both an authorizer and 
an appropriator until the House dissolved the VA/HUD 
appropriated subcommittee.
    In 2003, I remember our confrontation, when I called the 
corporation's board the ``Enron of nonprofits.'' It was stern 
and stark, but it was meant to get President Bush's attention. 
Really, we needed to shakeup oversight and accountability at 
the corporation.
    Now we have had the shakeup. Now we need to have a new 
opportunity, and I think there is a mood in the country. There 
is a mood in the Congress. We have got buckets of lessons 
learned for accountability, so let's translate that into 
creativity. We want to get on with it. We are going to get on 
with the hearing as well.
    We are going to call up for our next panel to join you. If 
you could wait because we would like to ask you questions 
because some of them will be cross--thank you--cross-
pollinated.
    [Laughter.]
    I was looking for a Wyoming word. We don't want to use a 
Baltimore word. We want to call up Lester Strong, the CEO of 
Experience Corps, representing our seniors. Michael Brown from 
City Year, one of the early organizations to engage young 
people.
    The former governor of Montana, Governor Marc Racicot, who 
has really been a strong advocate of national service and 
brings the perspective of a governor and those commissions we 
wanted at the State level.
    President of a new organization, Michelle Bouchard of 
HealthCorps in New York. This has been started with the 
assistance of Dr. Oz, and though this is a group that has not 
been affiliated necessarily with our national service family it 
fits within the framework that is really changing healthcare 
outcomes.
    And, of course, Shirley Sagawa. And if I am the founding 
mother, Shirley has been the midwife.
    [Laughter.]
    Now a visiting fellow at the Center for American Progress. 
Who has done a lot of the definitive thinking on this.
    We really want to hear from you, and then we will go 
immediately to our questions. What I would like to do is start 
off with Governor Racicot, to get his perspective on what it 
was like at the State level. That is your perspective.
    Then we will go to Shirley. Then we will go to the people 
who actually did hands-on programs and then throw it open for 
questions.

STATEMENT OF MARC RACICOT, FORMER GOVERNOR OF MONTANA, BIGFORK, 
                               MT

    Mr. Racicot. Madam Chairwoman, thank you for the privilege. 
Members of the committee, it is a delight to be here.
    I was born in a very small town in Montana, western 
Montana. It wasn't the end of the Earth, but you could darned 
well see it from there, I can assure you. My father and mother 
spent their growing up years in the same community within which 
I was born.
    They were, obviously, ultimately married, and I grew up to 
hear my father's stories. He was a loyal Democrat, by the way, 
Madam Chairwoman. Went to his grave, of course, with deep 
regret about what had happened to his oldest-born son. He told 
me stories about the Civilian Conservation Corps.
    It just so happened that one of the corps camps was not far 
outside of our little town. It was one of the camps that was 
located in virtually every State and in several territories 
from 1933 to 1942. In those camps, 3 million young men worked 
fighting fires, building public infrastructure on public lands, 
and restoring the Nation's forests, public forests by planting 
3 billion trees.
    When unemployment began to wane and the draft was initiated 
in 1940, the Civilian Conservation Corps and its camps ceased 
to exist, even though, obviously, my father for many decades 
thereafter and those that he worked with and knew in those 
camps were inspired by that generation of service to our 
country and to their communities. A period of time, I think, 
during which they discovered what they could do when engaged in 
common enterprise not only to benefit specific infrastructure 
projects, but to enhance the social capital of their individual 
communities in this country.
    I was just starting high school when President Kennedy and 
Congress created the Peace Corps. I can remember it exceedingly 
well, and it reminded, of course, all Americans at that time of 
our proud legacy of public service. Throughout my time, all of 
the time I was growing up, I watched my parents help our 
friends and neighbors, our church, and to serve in our little 
community in a variety of different ways.
    There were no heroes, just a vast number of the members of 
our community of every faith and belief--or perhaps no faith at 
all--who served the needs of others. It was just what everyone 
did.
    After my time in the U.S. Army, I entered into public 
service at the county and the State level with the steadfast 
belief, because of what I had seen and witnessed growing up in 
this little community, that I could and should try to embrace a 
purpose larger than myself and make a difference in the life of 
my community. There were millions of other people just like me 
who believed and did the same thing.
    I can remember with clarity when President George H.W. Bush 
created the Commission on National and Community Service, 
followed by the efforts of President Clinton and Congress to 
renew and enlarge the Nation's commitment to national and 
community service through the establishment of the Corporation 
for National and Community Service in 1993.
    Thereafter, throughout my time serving as Montana's 
governor and beyond, I was engaged with the corporation in the 
advancement of national and community service and was 
privileged to be nominated by President Clinton to serve a 4-
year term on the corporation's board.
    It is worth noting that my colleagues during that time, 
among them Governor Bush of Texas, overwhelmingly supported a 
clear commitment to the work of the corporation. Ultimately, 49 
out of 50 of those governors evinced that intent, signing on to 
a letter that was ultimately addressed to Congress. It is well 
known that President Bush continued to keep faith with his 
commitment to national service and to reignite the call to 
service throughout his presidency.
    I have also served as chairman of Jobs for America's 
Graduates, which is a national high school dropout prevention 
program, and succeeded Secretary of State Colin Powell as 
chairman of America's Promise.
    I offer this history, Madam Chair and members of the 
committee, to confirm the notion that government, for 
generations, has played an entirely appropriate role in 
advancing the imperative of public service. I also refer to 
that history with the singular purpose of sharing what I 
believe each of you have also discovered as a result of your 
own unselfish service to your individual States and to our 
beloved Nation.
    I could lay before you an encyclopedia of statistical 
information that would confirm that the public service ethic of 
this country is strong and alive and well. More than 1 billion 
volunteer service hours generated by Senior Corps volunteers. 
Hundreds of thousands of individuals served through AmeriCorps. 
Those who have worked with 1 million young high school 
students, participating annually in service learning 
initiatives provided under the auspices of Learn and Serve 
America.
    Those accomplishments are clearly worth noting and 
important and impressive. They have immeasurably enriched the 
public and social infrastructure of this country, and they 
rightly should be praised and recognized as convincing evidence 
of our responsibility to remain committed to our national and 
community service efforts.
    There is something larger than that to me. There is 
something more that commands our attention and justifies the 
involvement of our Government in our efforts to preserve and 
expand national and community service opportunities. And that 
is to recognize what those efforts do to refresh and inspire 
the spirit and the soul of this country.
    The endurance of this Nation and our freedom depend upon 
the decency and humility of every single American. People 
cannot be commanded nor ordered to live in freedom. They must 
choose it for themselves. We are bound together and we endure 
as a nation because we choose, as Americans, hundreds of times 
every day to respect the rights and liberties of our fellow 
citizens.
    Democracy and freedom cannot exist without the voluntary 
choice of every American to embrace the values of discipline, 
decency, and mutual respect. It is service that provides the 
glue that holds us together and preserves our way of life. It 
is what separates us from tyrants and terrorists. Surely, its 
enrichment is an appropriate function of our Government as it 
sets about to preserve and protect and defend the United States 
of America.
    Thank you, Madam Chair.
    [The prepared statement of Mr. Racicot follows:]
                   Prepared Statement of Marc Racicot
    I was born in a very small town in Western Montana where my father 
and mother were raised, met each other and ultimately were married. I 
grew up listening to my father's stories about the Civilian 
Conservation Corps camp located just outside of town. It was just one 
of the camps that were located in every State and several territories 
from 1933 to 1942. Three million young men from those camps worked 
fighting fires, building public infrastructure on public lands and 
restoring the Nation's public forests by planting 3 billion trees. When 
unemployment began to wane and the draft was initiated in 1940, the CCC 
and its camps ceased to exist even though fond memories of those days 
have inspired more than one generation over the last 70 years.
    I was just starting high school when President Kennedy and Congress 
created the Peace Corps and reminded all Americans of our proud legacy 
of public service. Throughout all of my time growing up I watched my 
parents help our friends and neighbors, our church and to serve in our 
little community in a variety of ways. There were no heroes, just a 
vast number of the members of our community of every faith and belief, 
or perhaps no faith at all, who served the needs of others. It was just 
what everyone did. After my time in the U.S. Army, I entered into 
public service at the county and State level with the steadfast belief 
that I could and should try to embrace a purpose larger than myself and 
make a difference in the life of my community. There were millions of 
other people just like me who believed and did the same thing.
    I remember when President George H.W. Bush created the Commission 
on National and Community Service, followed by the efforts of President 
Clinton and Congress to renew and enlarge the Nation's commitment to 
national and community service through the establishment of the 
Corporation for National and Community Service in 1993. Thereafter, 
throughout my time serving as Montana's governor and beyond, I was 
engaged with the Corporation in the advancement of national and 
community service and was privileged to be nominated by President 
Clinton to serve a 4-year term on the Corporation's board of directors. 
It is worth noting that my colleagues during that time, among them 
Governor Bush of Texas, overwhelmingly manifested their clear 
commitment to the work of the Corporation. It is well-known that 
President Bush continued to keep faith with his commitment to national 
service and to reignite the call to service throughout his presidency.
    I have also served as Chairman of Jobs for America's Graduates, a 
national high-school dropout prevention program, and succeeded 
Secretary of State Colin Powell as chairman of America's Promise.
    I offer this history to confirm the notion that government, for 
generations, has played an entirely appropriate role in advancing the 
imperative of public service. I also refer to that history with the 
singular purpose of sharing what I believe each of you have also 
discovered as a result of your own unselfish service to your individual 
States and to our beloved Nation. I could lay before you an 
encyclopedia of statistical information that would confirm that the 
public service ethic of our country and communities remains strong: 
more than 1 billion volunteer service hours generated by Senior Corps 
volunteers, more than 400,000 individuals served through AmeriCorps, 
and more than 1 million high school students participating annually in 
service-learning initiatives provided under the auspices of Learn and 
Serve America. Those accomplishments are clearly important and 
impressive. They have immeasurably enriched the public and social 
infrastructure of this country and rightly should be praised and 
recognized as convincing evidence of our responsibility to remain 
committed to our national and community service efforts.
    But, there is something more that commands our attention and 
justifies the involvement of government in our efforts to preserve and 
expand national and community service opportunities, and that is to 
recognize what those efforts do to refresh and inspire the spirit and 
soul of this country. The endurance of this Nation and our freedom 
depend upon the decency and humility of every American. People cannot 
be commanded nor ordered to live in freedom. They must choose it for 
themselves. We are bound together and we endure as a nation because we 
choose as Americans, hundreds of times every day, to respect the rights 
and liberties of our fellow citizens. Democracy and freedom cannot 
exist without the voluntary choice of every American to embrace the 
values of discipline, decency and mutual respect. And that's where 
national and community service comes in: it is service that promotes 
decency and mutual respect. It is service that provides the glue that 
holds us together and preserves our way of life. It is what separates 
us from tyrants and terrorists. And surely its enrichment is an 
appropriate function of our government as it sets about to preserve, 
protect and defend the United States of America.

    Senator Mikulski. Thank you very much, Governor.
    Ms. Sagawa, you have done a lot of thinking and research. 
You were here when we started 18 years ago. What do you think 
of the Serve America Act, and how do you think we can change 
National Service in a way that is both fiscally sound and 
socially prudent and yet stimulates service and social 
entrepreneurship?

   STATEMENT OF SHIRLEY SAGAWA, VISITING FELLOW, CENTER FOR 
  AMERICAN PROGRESS, AND COFOUNDER, SAGAWA/JOSPIN CONSULTING, 
                         WASHINGTON, DC

    Ms. Sagawa. Well, thank you so much for giving me the 
opportunity to speak before the committee. It is a great honor.
    I remember so fondly 20 years ago, when we started putting 
the first national service bill together with your leadership, 
Senator McCain's leadership, and, of course, Senator Kennedy 
and Senator Hatch. It was a bold experiment. We didn't know--
would people come forward to serve? Would it make sense to tie 
educational opportunity to the service? And would it really get 
anything done or just become sort of a boondoggle?
    I think what we have learned is that this has been a great 
experiment and a successful one. And your looking at this bill 
and moving forward quickly at a time when the country is in 
great crisis is extremely important because our way out of the 
troubles that we have now needs every citizen to come forward 
and do what they can.
    We know some important lessons from the last 20 years. 
First, it is that service does change lives and that there are 
transformative times in people's lives when service is 
particularly meaningful. As Senator Hatch noted, one of those 
times is when you are a young adult leaving high school or 
college. And finding your purpose is really important, and 
making a difference with the talents and energy that you have 
is something that can be transformative.
    Another really important time--and I call your attention to 
the Learn and Serve America program and the Summer of Service 
proposal by Senators Dodd and Cochran--is when kids are going 
from middle school to high school, and they don't know what 
they are going to be when they grow up. That is when kids drop 
out. They get disengaged from school, and they decide that 
there is no point to learning science. And why do I need to 
learn to write better?
    Giving them a service learning experience during that 
particular period of their lives can make the difference 
between those kids choosing risky behaviors and failure or 
finding that school is important and they need to continue. I 
hope that ends up in the final bill because it is a really 
important piece.
    Of course, another important time is when people reach 
retirement age, and they need to find their purpose again. It 
is very exciting that Serve America includes encore service 
opportunities to add to the Senior Corps programs that already 
exist.
    We know it changes people. We also know that service can 
solve problems, and that was another thing. We weren't really 
sure if it was just going to be make-work, in which case it is 
not worth spending Federal money on. What we found is that 
there are certain things that service is really good at and 
that perhaps better than regular employment.
    One is when skills are unsupported by the marketplace. You 
can get somebody who can really devote time to helping a young 
person fill out their college applications and get into college 
or to help people who need legal help and they can't afford 
it--after Katrina they were having so much trouble getting the 
benefits that they were due. There are so many times when the 
market doesn't pay for those services and service does.
    Knowing the knowledge of a local culture and community is 
really important in health programs, for example. Mobilizing 
large numbers of volunteers to do everything from tutoring to 
planting trees, as we heard from the governor, is another area. 
There are just things that service does well and that we ought 
to be making better use of.
    The alumni who have served, who have been trained and have 
special skills, are, as we saw after Katrina, an amazingly 
important force that we can mobilize in the wake of disasters, 
and I am glad the bill includes that as well.
    Finally, we also know that national service has been very 
important in promoting the health and capacity of the nonprofit 
sector, particularly promoting innovative strategies to solving 
problems. The corporation has a strong track record of 
supporting social entrepreneurs. I would say the best agency in 
government for doing so, and that is why the Community 
Solutions Fund pilot program belongs there and is going to be a 
wonderful way to take some of these effective organizations to 
scale. It has been the top priority of the America Forward 
coalition and I am very happy to see it in the bill.
    There are other pieces that are also important. The 
Commission on Cross-Sector Solutions to America's Problems will 
examine how government can work better with business and the 
nonprofit sector to solve problems in communities. The 
Volunteer Generation Fund will make it possible for 
organizations--faith-based, community-based, grassroots, and 
others--to engage new volunteers effectively.
    Finally, we all know that public service spans a very large 
range, from volunteers who will give a couple of hours to build 
a playground to people like you who are giving your lives to 
public service as your career. We need all these different 
parts. This bill recognizes a slice of that kind of service, 
and it belongs in that continuum that begins when we are the 
youngest children until we can't do any more.
    Thank you so much for the opportunity to speak to the 
committee today. With your leadership, we can take the next 
giant step toward solving many of our most pressing problems by 
better deploying the time and talents of Americans of all ages.
    Thank you so much for your leadership.
    [The prepared statement of Ms. Sagawa follows:]
                  Prepared Statement of Shirley Sagawa
    Twenty years ago, this committee put together demonstration 
legislation to test a simple premise: Would young Americans serve their 
communities full-time for a year, or part-time for a longer period, in 
exchange for money for college?
    The answer was an overwhelming ``yes.'' Building on the success of 
this experiment, a few years later, AmeriCorps took this concept to the 
next level, engaging more than 540,000 Americans in service over the 
last 15 years.
    Today you are considering legislation that would not only build on 
this strong track record, but expand other types of service as well. It 
could not come at a more critical time for our Nation. As unemployment 
rises, particularly among young people, community needs are also 
soaring. Demands on the nonprofit organizations that develop our youth, 
feed the hungry, and rebuild distressed neighborhoods are staggering. 
The work of groups that protect the environment, preserve our culture, 
and educate our children is needed more than ever.
    Fortunately, Americans are coming forward, ready to roll up their 
sleeves to solve these problems. The number of applicants for 
AmeriCorps programs and volunteer trainings have doubled or tripled 
over previous years.
    Now is the moment.
    I am honored to appear before you, and urge you to move the Serve 
America Act to respond to these tremendous needs and great opportunity. 
I speak to you as a person who has been deeply involved in national 
service policy--initially as a Labor Committee staff person for Senator 
Kennedy, then as an appointee in the first Bush and Clinton 
administrations, and now, as a fellow at the Center for American 
Progress, and as a consultant to many organizations that run national 
service programs.
    Over the last two decades, we have learned that serving changes 
lives. In fact, a longitudinal study of AmeriCorps members, after 8 
years, clearly demonstrates that AmeriCorps members are more connected 
to their communities, have a better understanding of community 
problems, and are more involved in civic activities such as attending 
public meetings and writing to newspapers. Former AmeriCorps members 
were significantly more likely than the comparison group to enter 
careers in public service such as teaching, public safety, social work 
and full-time military service. AmeriCorps members experienced 
significant increases in their work skills, showing their experience 
better prepared them for the future. And importantly, the study shows 
that AmeriCorps alumni are more satisfied with their lives in almost 
every respect than the comparison group who expressed interest but 
ultimately did not serve.
    While it is clear that serving can change the life of the server, 
we have also learned something even more important--that service can be 
a key strategy to solve some of the Nation's most pressing problems. 
For example, in the area of education, national service puts talented 
teachers in the classroom, offers struggling students one-on-one 
attention, brings supportive services and after school programs to 
urban schools, and creates a culture that supports learning. This 
success is documented in evaluations of individual programs and the 
stories of schools, students, and those who serve. In some cases, 
service may be the critical ingredient to successful school reform.
    Unfortunately, these programs operate on too small a scale. They 
serve dozens of schools and hundreds of students, when thousands of 
schools and millions of students need them. A similar story can be told 
in the areas of energy, opportunity, and health.
    It's time to take the programs showing measurable outcomes to 
scale. That's why we need the issue-focused corps in Serve America. 
Balancing the flexible, community-determined programming of regular 
AmeriCorps with these new targeted corps provides the right combination 
of flexibility and focus for the next stage of national service. We 
will be able, if these corps are authorized and funded, be able to 
document the impact of service on these national challenges and better 
understand the role that service plays in solving our most pressing 
problems. We will also benefit from the engagement of Baby Boomers, a 
valuable national resource, through the Encore Service Program in the 
act.
    Another notable and surprising success of AmeriCorps is the 
contribution it has made to innovation in the social sector. When an 
organization takes an out-of-the-box approach to solving a problem, it 
often finds few sources available for sustainable funding. AmeriCorps, 
because it doesn't specify the strategy for problem-solving or the 
presumptive provider, has been a flexible source of funding and human 
capital to grow some of the country's most promising organizations, 
including Jumpstart, Citizen Schools, Experience Corps, and Habitat for 
Humanity.
    The Corporation for National and Community Service has been an 
agency that appreciates social entrepreneurs and the contribution they 
make to social innovation. Unlike other Federal agencies, it supports 
organizations in a wide-variety of fields, and fosters cross-issue 
solutions that combine, for example, education and health, or 
environment and job training. For this reason, it makes sense that 
Serve America includes funding to support a social innovation fund 
network, called the ``Community Solutions Funds Pilot Program,'' that 
will use Federal dollars to leverage other public and private sector 
contributions to take our most innovative and effective organizations 
to scale. It will operate like this: Existing grantmakers--like 
community foundations, United Ways, or venture philanthropy funders--
may, together with State commissions or local government partners, 
apply for a grant to establish a Community Solutions Fund that focuses 
on a specific issue (like increasing economic opportunity or reducing 
crime) or geographic area (like a neighborhood or a set of rural 
counties). These grantmakers will match the Federal funds dollar for 
dollar, and then make substantial, multi-year grants to enable 
organizations that have strong track records to grow. These 
organizations will raise additional matching funds of $1 for each 
dollar they receive. In this way, Federal dollars will make it possible 
for communities to attract or expand the organizations achieving the 
best results against their highest priority needs. This concept, 
initially proposed by the America Forward coalition, could transform 
the way we address public problem solving in America to allow us to 
support the highest return strategies in a wide variety of areas.
    I am also excited to see the Commission on Cross-Sector Solutions 
to America's Problems included in the legislation. The government has 
become highly reliant on the nonprofit sector to deliver its services. 
As noted in the Forward Together declaration, signed by more than 100 
civic sector leaders, nonprofits are full ``partners in public service 
sheltering the homeless, training the unemployed, educating our youth, 
building affordable housing, counseling families, delivering health 
care, giving voice to the powerless, lifting our spirits with arts and 
culture, and serving uniquely as vehicles for citizen initiative in 
support of the common good. In the process, they contribute powerfully 
to our economy, employing 11 million paid workers--more than the 
construction industry (7.2 million), finance (5.2 million), 
transportation (5.1 million), real estate (2.1 million), and, with 
volunteers, more than all branches of manufacturing (14.4 million).''
    Indeed, today's nonprofit sector has reached record size, with the 
number of organizations doubling in the last 25 years. Employing 1 out 
of every 10 individuals, the sector is the Nation's fastest growing 
employer, outstripping the rate of growth for government and business 
alike. Nonprofits engage one in four Americans as volunteers and two 
out of three families as donors, and account for more than 5 percent of 
our gross domestic product.
    This bipartisan Commission will take on the challenge of exploring 
the relationship of the Federal Government with nonprofit and 
philanthropic organizations, as well as business, to achieve better 
outcomes and utilization of resources. This examination is long 
overdue.
    There are several other important provisions I want to highlight. 
First, while AmeriCorps and the ServeAmerica corpsmembers will play an 
important role in recruiting and supervising volunteers who do not 
receive education awards, there is still a need to support volunteer 
management in other ways. The Volunteer Generation Fund in the Serve 
America Act would improve the capacity of nonprofit, faith-based, and 
other civic organizations and State service commissions to engage new 
volunteers. It is also designed to spur innovation in volunteer 
recruitment and management practices, with a goal of increasing the 
number of volunteers each year.
    Second, I'm glad that service-learning is expanded in the 
legislation, through the Youth Engagement Zones and Campus of Service 
Programs. Over the last decades, a substantial body of evidence has 
emerged to demonstrate that service-learning promotes positive youth 
development like few other programs can, motivating students to achieve 
and teaching personal, social, and civic responsibility. Unfortunately, 
research also shows that the young people who need this the most are 
also the least likely to be engaged. According to the Corporation for 
National and Community Service, disadvantaged teens are far less likely 
to volunteer than their peers from more advantaged backgrounds, by a 43 
percent to 59 percent margin. However, those disadvantaged youth who do 
serve hold more positive civic attitudes, discussing politics, 
believing that they can make a difference, and planning to go to 
college at higher rates than their low-income peers who do not 
volunteer.
    Two other important legislative changes could advance service-
learning. First, expanding and modifying the existing Learn and Serve 
America legislation should be a high priority, particularly increasing 
the funds available for strategic investments that would build capacity 
for service-learning, especially in schools serving disadvantaged 
students.
    Second, Senators Dodd and Cochran have sponsored legislation to 
create a ``Summer of Service'' to offer students making the transition 
from middle to high school an opportunity to participate in a 
structured community service program over the summer months. The summer 
months between middle school and high school can be a particularly 
testing time, when children are redefining themselves, and in the 
process making decisions that may well determine who they will be as 
adults, for better or worse. For working parents, too, summer months 
are a particular challenge. Their kids are too young for paid jobs and 
too old to be ``babysat.'' Economically well-off families can afford a 
host of summer camps offering learning opportunities from language 
immersion to lacrosse. But in too many communities, offerings for older 
youth are limited and prices steep, making summer a time of particular 
peril.
    Middle schoolers who perform a ``summer of service'' under the bill 
would earn a $500 scholarship. At a time in life when students and 
their families need to begin thinking about college, this feature would 
positively brand participating youth as college material--even those 
who never considered the possibility--and could set these students and 
their families on a course of saving and planning for college. By 
making the summer service experience a ``rite of passage'' for young 
people in transition to high school, whole communities could be 
transformed.
    Third, the alumni of AmeriCorps and other national service programs 
represent a growing and capable resource that can meet the workload 
surge following a disaster and provide needed service in targeted 
issues of local and national concern. We saw this after Hurricane 
Katrina, but alumni could be more easily engaged to respond to crises 
and other priority national needs if a database, training and 
deployment systems were developed and if funding were available for 
living and travel expenses for Alumni volunteers ready to be called 
back into service. The National Service Reserve Corps would build such 
a system.
    Finally, I would be remiss in not stressing to the committee the 
need to reauthorize the programs authorized under the National and 
Community Service Act and Domestic Volunteer Service Act. These 
programs have not been revisited for 15 years and are badly in need of 
updating. For example:

    <bullet> We need to increase and index the Segal Education Award. 
For a year of full-time service, an AmeriCorps member receives an 
education award worth $4,725, which may be used for higher education or 
to pay back student loans. This amount, which is fully taxable, was 
established in 1993 and equaled tuition, fees, and room and board at a 
2-year higher education institution in 1995, the first year in which an 
AmeriCorps member would have been eligible to use the award. Today 
higher education costs have increased dramatically, with 2-year 
institutions charging more than $7,000 annually and 4-year institutions 
costing $17,447 in 2007. It is time to adjust the Segal Education Award 
to ensure it remains a means of educational access for those who make a 
year-long commitment to service.
    <bullet> We also need to move to a system of fixed price grants in 
AmeriCorps to eliminate complex accounting requirements that contribute 
neither to accountability nor program quality. By specifying a flat 
amount per member, and requiring that grantees raise any additional 
amounts they need to operate a program, the same amount of leverage can 
be attained without forcing programs into a needlessly complex system.
    <bullet> The Senior Corps programs are also in need of updating, 
particularly the stipend provided to Foster Grandparents and Senior 
Companions. The low-income adults who serve in these programs receive 
just $2.65 per hour of service, an amount that should be increased and 
indexed.
    <bullet> Finally, we all know that public service spans a very 
large range, from a volunteer commitment of a few hours to a lifetime 
of service. Our Nation needs both--people who take a day out of their 
business career to do pro bono work or build a playground, and people 
who, like you, choose to make a career of serving the American people 
through government. We can attract more of the best and the brightest 
to Federal service by granting AmeriCorps members the same 
noncompetitive eligibility for Federal service available to Peace Corps 
and VISTA volunteers and supporting programs like the proposed 
Roosevelt Scholars Act, which would create an ROTC-like scholarship 
program to fund graduate-level education in mission-critical fields in 
exchange for a Federal service commitment.
    Thank you for the opportunity to speak to the committee today. With 
your leadership, we can take the next giant step toward solving many of 
our most pressing problems by better deploying the time and talents of 
Americans of all ages to serve their communities and the country.

    Senator Mikulski. Thank you, Shirley. That was great.
    Now what I would like to do is turn to Mr. Lester Strong, 
the CEO of Experience Corps. Then Michelle, we'll go to you and 
then wrap up with Michael Brown of City Year.
    We turn now to Mr. Lester Strong, the CEO of Experience 
Corps. Experience Corps is one of our really very interesting 
programs, which shows that whether you are young in age or 
young at heart, America needs you and people have the ability 
to give.
    Mr. Strong.

STATEMENT OF LESTER STRONG, CEO, EXPERIENCE CORPS, WASHINGTON, 
                               DC

    Mr. Strong. Thank you, Madam Chair and Senator Enzi and to 
the members of the committee. It is an honor to be here.
    I also want to acknowledge Senator Kennedy. Having lived in 
Massachusetts for 20 years, he will, I think, always be my 
Senator. I appreciate and acknowledge his leadership, along 
with Senator Hatch and Senator McCain, for what they are doing 
for social engagement.
    Experience Corps strongly supports both the Serve America 
Act and the Encore Service Acts and applauds this committee for 
taking the bold steps to promote civic engagement among the 
largely untapped resource of older Americans. As the CEO of 
Experience Corps, I want to highlight what I think is an 
enormous value older adults, ages 50-plus, bring to the 
national and community service agenda.
    Experience Corps for the past 15 years has enlisted older 
adults in teaching academically struggling children how to 
read. It is an evidence-based program that provides rigorous 
academic interventions by 2,000 members in 23 cities and 
serving 20,000 children.
    I would like to tell you three very quick stories that 
illustrate the payoff that comes from national service by 
adults in their 50s and their 60s and beyond. The first story 
is mine. In the third grade, my teacher told my parents that I 
was mentally retarded and to not expect much from me either 
academically or in my work life.
    Well, I am here today because three older adults refused to 
believe that third grade teacher. A barber, a mother of six 
children, and a local minister gave me the moral support that I 
needed, as well as the discipline and the study habits that 
helped me to become an honor student through my high school 
years, then a college graduate, a broadcast journalist, a 
nonprofit executive, and now the CEO of a major national 
organization.
    I was lucky. But, I am sure you would agree that we can't 
rely on luck to rescue the millions of children struggling to 
find a clear pathway to a meaningful life.
    My second story is about another third grader who lives in 
Baltimore, home of the largest Experience Corps project in the 
country. An Experience Corps member told me about a little boy 
named Sean who would always resist her help. When day after 
day, he would stand on the other side of the room and just 
watch her.
    Until finally one day, when she was helping some other 
children, Sean come over to her and said, ``I am ready. Will 
you help me now?'' He needed to see first that it was OK to ask 
for help, and he also needed to watch her in order to know that 
he could trust her.
    It was rigorous training combined with the patience and the 
commitment of an older adult that got Sean to read. Study after 
study, including the brand new research from Washington 
University in St. Louis that is being released today, shows 
that this type of intervention does work.
    My third story illustrates a major point from the research, 
namely that Experience Corps not only works for the children 
like Sean, but also for older adults as well. My next story is 
about James McDonald, who is here with me today. Mr. McDonald 
and his friends in Baltimore--purely a coincidence, Senator 
Mikulski----
    [Laughter.]
    Mr. Strong. [continuing]. Planned to retire in style with 
the renovation of his basement rec room. However, a couple of 
years later, all of his friends had passed on. The large 
television and the pool table just weren't enough. He had to 
rethink his retirement strategy.
    That is when he decided to join Experience Corps. Six years 
later, serving as the team leader at the Barclay Elementary 
School, Mr. McDonald says that because of the impact that he is 
having on his children and the relationships with his fellow 
team members, he has reason to get up in the morning.
    His story echoes in the research that I just mentioned a 
moment ago. Studies by Johns Hopkins University and Washington 
University in St. Louis show that Experience Corps members 
increase their mental acuity and their physical function as 
well as enjoy an expanded social network and a greater sense of 
purpose in their lives by serving as tutors to at-risk 
children.
    The big point to these three little stories is to 
illustrate that older adults are both ready and able to have 
impact. When it comes to civic engagement, older adults--by 
virtue of their life experiences, their workplace expertise, 
and their emotional maturity--are ready to take on the toughest 
challenges in this country and to deliver on them.
    Passage of Serve America and Encore Service is a critical 
step toward unleashing this powerful and precious asset in the 
service of our children, our country, and our communities.
    Thank you.
    [The prepared statement of Mr. Strong follows:]
                  Prepared Statement of Lester Strong
    Good afternoon. Thank you, Senator Mikulski, Senator Kennedy, who 
cannot be here today, and Senator Enzi, for convening this important 
hearing.
    This afternoon I want to shine a light on the promise for America 
of an expanded, modernized national service program that engages 
Americans of all ages. I commend the Senators who have come together 
across party lines to craft the proposed Serve America Act and the 
Encore Service Act--those bills will take us toward this promise. My 
testimony will focus on the importance of service opportunities for an 
age group that, though long underrepresented within the ranks of 
AmeriCorps, has enormous potential to help solve our Nation's most 
pressing social problems.
    Experience Corps is my point of reference and source of evidence 
and examples. It is one of many innovative, high performing programs 
that are partially funded by AmeriCorps, but it is one of very few that 
focuses on engaging adults in their 50s, 60s, 70s and beyond. We 
believe our mission to focus on this age group for providing high 
impact service is an innovation that warrants expansion and 
replication. I suggest that one measure of success for the new national 
service legislation should be the extent to which it deploys and 
leverages millions of older adults to serve in a wide variety of high-
impact volunteer and national service programs. Along with national and 
local leadership for a fresh view of adults age 50 and beyond as 
givers, not just receivers, this legislation can unleash unprecedented 
talent, experience and commitment to strengthen America's communities.
    Experience Corps was founded almost 15 years ago by John Gardner 
and Marc Freedman, with demonstration funding from the Corporation for 
National and Community Service. Its purpose is to mobilize adults age 
55 and older to meet serious social and community needs. To date, our 
primary work has been focused on academic gains, particularly in 
reading, for disadvantaged children who are lagging behind in school. 
Nearly 2,000 Experience Corps members are active this year serving 
20,000 students in 23 cities. They spend from 5 to 15 hours per week 
(most spend 11 to 15 hours weekly) working primarily with first, second 
and third graders at neighborhood public schools. About a third of the 
members receive stipends through AmeriCorps. We are proud that 
President Obama mentioned Experience Corps as a proven model in his 
Call to Service.
    I am new to Experience Corps this year. In the past 2 months as the 
organization's new CEO, I have visited Experience Corps members in 
Boston, Baltimore and Washington, DC. I've had the privilege of seeing 
the highly positive and significant impact so many older adults are 
having on the lives of thousands of our most at-risk children. I hope 
my comments can convey to you how encouraged I feel for the struggling 
inner city children who are consistently tutored by trained Experience 
Corps members and the powerful conviction I have that adults in my own 
age group (I just celebrated my 60th birthday) can be the answer to 
many social ills.
    I'd like to share with you a bit of personal background that 
explains why I feel I've found my calling in this job. In the third 
grade, my parents were told that I was mentally retarded and would be 
only marginally proficient both academically and in life. They were 
told that menial work was the most I should aspire to. I'm only here 
today because three older adults refused to believe that third grade 
teacher. My barber, a mother of one of my friends, and a minister gave 
me not only moral support but also taught me the discipline and study 
habits that helped me become an honor student for the rest of my public 
school years, then a college graduate, a broadcast journalist, a 
nonprofit executive, and now CEO of a major national organization.
    The scary truth is that what very nearly happened to me happens all 
too frequently, even more than 40 years later. You are well aware that 
our schools are failing millions of children. In our Nation's 50 
largest cities, only about half are graduating from high school. The 
statistics are even bleaker for African-American and Latino children 
and for all poor children. One recent report suggests that one-third of 
poor children enter kindergarten lagging behind their peers; and by 
fourth grade half of these children will not be proficient in reading. 
President Obama recently asked every American to complete high school 
and a year beyond in college or job training. I submit that the job of 
meeting this responsibility belongs to all generations and can be 
effectively advanced through national service.
    Independent research shows that well-structured programs can change 
the school trajectory of at-risk students. Matching kids who are at 
risk of dropping behind or dropping out (yes, even in elementary 
school) with a trained Experience Corps tutor produces significant, 
critical reading skills and confidence. I hope these research studies 
encourage the national service community to both invest in 
organizations that can prove their impact and boost the incentives to 
engage more people in their fifties and beyond in critical service. We 
believe that a large cadre of people in this age group will be 
especially interested in the proposed ``Education Corps,'' while many 
will also be attracted to the other three ``corps''--Clean Energy, 
Healthy Futures and Opportunity.
    Let me offer four reasons for including in the new legislation the 
strongest possible provisions for attracting, recruiting, and retaining 
older adults in AmeriCorps and the proposed new programs.

    1. The aging of baby boomers presents unprecedented opportunity. 
About 78 million people were born between 1946 and 1964. Nearly 10,000 
of them turn 60 every day. Research by AARP, the Corporation for 
National and Community Service, the MetLife Foundation and others all 
find that more than half of those individuals retain the idealism of 
their youth and want to help others. More to Give: Tapping the Talents 
of the Baby Boomer, Silent and Greatest Generations, a 2008 study by 
AARP of people age 44 to 79, found that most people were unimpeded by 
health or caring for a relative and wanted to help their communities. 
Of those not currently volunteering, 7 in 10 said they had not been 
asked! We cannot afford for national service to miss the opportunity to 
capture their talent. I've seen how teams of Experience Corps members 
affect individual students and the culture of entire schools--in 
Baltimore, Boston and Washington. The 2,000 Experience Corps members we 
have recruited and trained can help 20,000 students, but there are 
millions more who need the kind of in-depth, consistent help that can 
be the hallmark of modernized service programs, especially those that 
engage older adults.
    2. Independent research has shown that Experience Corps works for 
children. Researchers at Washington University in St. Louis recently 
completed a rigorous, random assignment study, funded by the Atlantic 
Philanthropies, on the impact of Experience Corps tutoring on young 
students' reading ability. The results, which demonstrate significant, 
positive gains in student learning, particularly for those who are the 
farthest behind, will be released in April. They will show that this 
low-cost service intervention utilizing older volunteers can produce 
greater academic results for low-performance kids than many other 
educational interventions.
    Research can also document something we all know from personal 
experience--that good relationships can transform the lives of both the 
people involved. It may seem a bit magical, but these good 
relationships result from a wide variety of factors--training, support, 
evaluation, a deep belief in the ability of the kids to succeed, 
consistency, trust, plus the time and space in which to become friends. 
Older adults can draw on a wide array of life and career experiences, 
plus patience and the deep desire to make a difference. It works.
    Let me give you an example. An Experience Corps member in Baltimore 
told me about a young boy in third grade, a ``non-reader'' who was 
nervous and held himself apart from children and adults alike. He was 
unable to concentrate on any lessons. After many weeks of the pair 
mainly sitting at a table while the tutor chatted or read aloud to the 
boy, the boy confessed that he was afraid of the other third graders. 
His siblings were very rough at home, putting him down and beating him 
up for no reason. He always worried about protecting himself. His tutor 
began to integrate social skills with the reading program and 
encouraged the boy to try them out. The teacher noticed a difference in 
the boy's openness to her and was able to engage him more in classroom 
activities. Change had begun for that boy. He started to learn to read 
for the first time.
    3. Independent research has shown that Experience Corps works for 
older adults, too. Two respected universities have completed scientific 
studies of the impact of Experience Corps on its members. Johns Hopkins 
University School of Medicine reports in the March Journal of 
Gerontology that Experience Corps members doubled their level of 
physical activity as a result of participation in the program and that 
that increased activity level was sustained for at least 3 years. 
Washington University researchers found a significant, positive impact 
on mental health, physical functioning, and the maintenance of overall 
health. Members reported that they had a wider circle of friends and 
were more engaged in civic and community activities.
    Washington University also documented the diversity of Experience 
Corps members and, by implication, of other older adults who may be 
interested in providing intensive service to children. The age range is 
from 50 to 87--two+ generations! About \1/2\ are African-American and 
39 percent white. One-third have some higher education and all have 
high school degrees. Incomes range from 20 percent who earn less than 
$15,000 annually to 15 percent with more than $75,000 and the rest in 
between.
    We all need a reason to get up in the morning and for millions of 
people in later life, national service can be a big part of that 
reason. I heard a great testimonial to this aspect of service from 
James McDonald of Baltimore, MD. Upon retirement, James and his buddies 
pooled their funds to buy a big TV and other fun things to outfit his 
rec room. When his buddies moved or died, James was left alone with the 
TV, unhappy and unfulfilled. He said he blesses the day he found 
Experience Corps, where he has been serving as a tutor, classroom 
assistant and team leader for 3 days a week for 4 years. His health is 
good, his spirits are high and he's seen as a vital part of his 
Experience Corps team and school operations.
    4. Engaging more people in the second half of life in national 
service will be good for all of us. The mobilization of adults in their 
fifties and beyond in service to their communities can be an antidote 
to the current economic downturn, the pessimistic long-term projections 
for the aging population, and the hidden costs of a deteriorating 
safety net. For people who have finished their full-time midlife 
careers, some of them prematurely due to the economy, service positions 
offer purpose, dignity and modest, but for some people essential 
stipends, to cover the additional costs of service activities outside 
the home. For people who want to move to nonprofit or public sector 
service work, the national service training and experience can be a 
valuable stepping stone to a job. Over time, research indicates that 
the continued activity and health benefits of engaging in public 
purpose service or work will reduce the increase in demand on Medicare. 
Most important, over time, the high-impact services will help prevent 
the devastating social and economic consequences of children who don't 
learn, families that don't have jobs or homes, gaps in health care and 
wasted energy.

    I have offered some reasons to recognize the importance of 
emphasizing the 50 and older age group as part of the new and very 
welcome Congressional initiative to encourage service by all ages, for 
all ages. The term ``shovel ready'' has entered the American lexicon, 
meaning ready to have significant impact immediately. I submit, when it 
comes to civic engagement, America's older adults are ``shovel ready.'' 
Their life experiences, their workplace expertise and their maturity 
have prepared the healthiest and best educated generation to take on 
the toughest challenges America faces, and to deliver. Passage of the 
ServeAmerica Act is a critical step in unleashing this precious asset 
in service of our children, our communities and our country.
    In conclusion, I thank the committee for your attention to my 
testimony and to the following provisions that we believe are important 
to realizing the goal of robust citizen service in America:

    <bullet> The Education Award under AmeriCorps may be transferred to 
another person and available for up to 20 years. (The transfer could be 
made through and approved educational savings account.)
    <bullet> The timeframe for providing service and receiving the 
education award should be extended, particularly for those serving 
part-time (the preference of most older adults).
    <bullet> The Corporation should study, report and address 
additional incentives and barriers for participation by the 50+ 
population.
    <bullet> The proposed Volunteer Generation Fund should be used in 
part to mobilize for service the 50+ population.
    <bullet> Congress should encourage the Corporation to provide a 
substantial percentage of grants under Subtitles C and G to programs 
targeting adults age 50+, including programs with an intergenerational 
workforce.

    Senator Mikulski. Before we go to Michelle, Mr. Strong, you 
need to introduce my Baltimore resident.
    Mr. Strong. I would be happy to introduce Mr. McDonald, who 
is sitting right here.
    Senator Mikulski. How do you do, Mr. McDonald?
    [Applause.]
    Now we are going to turn to Michelle Bouchard, president of 
HealthCorps, a very interesting new organization that is really 
having an impact changing health outcomes.

  STATEMENT OF MICHELLE BOUCHARD, PRESIDENT, HEALTHCORPS, NEW 
                            YORK, NY

    Ms. Bouchard. Thank you so much, Madam Chair and Senator 
Enzi and the committee members, for inviting me here today to 
speak along with these inspiring people in support of national 
service and to talk about how HealthCorps is promoting service 
in the field of wellness.
    A special thanks to you, Madam Chair, for reaching out to 
our founder--heart surgeon, Oprah show health expert, Dr. 
Mehmet Oz, who wishes he could be here today and sends his best 
to all of you. As a member of the ServiceNation Leadership 
Council, Dr. Oz joins many others who endorse service 
throughout the United States.
    HealthCorps' mandate is the promotion of integrated 
wellness--eating smart, staying active, thinking positive--to 
students and communities across the country at the grassroots 
level. Health-
Corps is more of a movement than a program because we empower 
and provide opportunities for teenagers, teachers, 
administrators to devote time to changing the health of 
America.
    At this time more than ever, service cannot only be an 
agent of change, it can be a powerful tool for mental 
resilience. When I was a kid growing up and times got tough, my 
mother would say to me, ``Lose yourself in a cause greater than 
yourself.'' And it works, Senators. People are happier when 
they focus on others.
    HealthCorps' heart is its team of coordinators--recent 
college grads who give 2 years of service as peer mentors to 
high school students in 44 schools across 7 States. These 
passionate young people are destined for careers in medicine, 
nursing, and health policy. I have one sitting right behind me 
today, I am proud to say. They could go straight on to their 
grad degrees, but choose first to impact young lives.
    Fashioned after the Peace Corps, HealthCorps deploys each 
coordinator to a specific high school where he or she works 5 
days a week, teaching our health curriculum. The coordinators 
go far beyond the call of duty, however. They become role 
models.
    HealthCorps works because kids influence kids best. In 
classrooms, coordinators drive home our message--``Value your 
body. It is the most important thing you will ever inherit.''--
and spread the word.
    HealthCorps is not just about our coordinators doing 
service, it is about inspiring the students to do service 
learning as well by participating in and organizing wellness 
events, such as community health fairs and step contests, and 
through a partnership with USA Mentoring, we will be mobilizing 
volunteers of all ages to do one-on-one mentoring in our high 
schools as well.
    We know what we are doing is working. Our first study has 
come out, and we show we significantly decrease consumption of 
soda and significantly increase physical activity. We are 
expanding the conversation from campuses to communities. We are 
reaching 22,000 students right now and well over 70,000 when 
you include the community members and the family members.
    Demand for the program outstrips our supply--our ability to 
supply it. In 5 short years, we have grown from 2 schools in 
the Northeast to 44 schools in 7 States. Next year, we plan to 
be in 65 schools in 12 States. There are hundreds of schools in 
all 50 States that would like our support if we could provide 
it.
    Additionally, we have begun exploring how we can make a 
difference in shifting the paradigm from treatment to 
prevention and how the HealthCorps Advisory Board can help 
establish baseline requirements for an integrative health coach 
curriculum, accredited degree, and licensed profession.
    If we reach our goals, and we think we will, we will 
activate communities through our hundreds of local grassroots 
wellness events every year. The founding principle behind this 
activation is service--convincing people to give some of their 
time to show others simple changes that will endure for life 
and make this Nation a healthier, happier one.
    The HealthCorps model is shovel ready. It can scale quickly 
and make a difference on the ground immediately. We are also 
positioned to serve as a hub for other community initiatives by 
working with partners like the National Association of 
Community Health Centers, which is here today. We plan to give 
HealthCorps students the opportunity to do service learning at 
clinics and encourage graduating seniors to consider applying 
for AmeriCorps clinic internships as well.
    We are strategically partnered with hundreds of nonprofits 
and organizations across seven States, far too many to name 
here. We invite all our partners to participate in our events 
because we know it is going to take a village to spark a 
wellness movement.
    HealthCorps' mission transcends an individual approach. We 
embrace a holistic community approach to health, focusing 
significant work on changing the physical environment in the 
school and the community as well. For example, we are working 
with the CDC, and we hope to launch a Fit Town Challenge this 
fall, a 12-month wellness challenge to 5 large American 
communities with Health-
Corps programs to see who can actualize the greatest change to 
create an environment conducive to wellness.
    In schools, coordinators campaign for the removal of sodas 
in vending machines, healthier choices in the cafeteria, and 
access to farmer's markets. In New York City, in partnership 
with Commissioner Frieden and New York City DOHMH, HealthCorps, 
students have surveyed local bodegas as a way to identify 
locales needing healthier choices.
    It is easy for HealthCorps to be inspired by the concept of 
service. We are supported by two amazing active boards of 
unimaginably busy people at the very top of their professions 
who still find time to give back, like Dr. Oz and Dr. Mike 
Roizen from the Cleveland Clinic, as well as celebrity athletes 
and performers and artists.
    My great staff, which many of them sit behind me, I am 
proud to say today, inspire me every day with the service they 
exhibit in their own personal lives. Many of them have spent 
time at Teach for America as grassroots activists and 
HealthCorps coordinators. They are great. But as Dr. Martin 
Luther King, Jr., once said, ``Everybody can be great because 
anybody can serve.''
    I thank you all for your time and the recognition of 
HealthCorps as well as all these programs of national service.
    [The prepared statement of Ms. Bouchard follows:]
                Prepared Statement of Michelle Bouchard
    Thank you, Chairmen and committee members, for inviting me here 
today to speak in support of national service and to talk specifically 
about how HealthCorps is promoting and inspiring service in the field 
of wellness. I am deeply indebted to Senator Mikulski for reaching out 
to our founder, heart surgeon and Oprah Show health expert Dr. Mehmet 
Oz, with her kind invitation less than 2 weeks ago to join the 
conversation on integrative medicine and how it can address the rise in 
chronic illnesses in at-risk communities. That conversation led to my 
participation today. I have offered Dr. Oz's Senate HELP Committee 
testimony as Appendix I. As a member of the ServiceNation Leadership 
Council, Dr. Oz leads the health service initiative and joins many 
other national and cultural leaders and celebrities who endorse 
national service throughout the United States.
                               who we are
    HealthCorps was started 5 years ago in an effort to save our 
children who are destined for shorter life spans than those of their 
parents if we don't take immediate action.
    HealthCorps' mandate is the promotion of integrated wellness--
eating smart, staying active, thinking positive--to students and 
communities across the country at the grass roots level. We view 
HealthCorps as more of a movement than a program because we empower and 
provide opportunities for future practitioners, teenagers, teachers and 
school administrators to devote time to changing the health of America. 
At this time more than ever, service can not only serve as an agent of 
change, it can serve as a powerful tool for mental resilience. When I 
was a kid growing up and times got tough, my East Texas Mother would 
say, ``Lose yourself in a cause greater than yourself.'' And it works. 
People are happier when they focus on others.
    HealthCorps' heart is its team of Coordinators, recent college 
graduates, who give 2 years of service as salaried health coaches and 
peer-mentors to high school students in 44 schools across seven States. 
These passionate, bright young people are destined for careers in 
medicine, nursing and health policy. They could go straight on to their 
graduate degrees--but instead choose first to cut their teeth in the 
front lines of high schools--impacting young lives.
                               what we do
    Fashioned after a Peace Corps model, HealthCorps deploys each 
Coordinator to a specific school where he or she works 5 days a week 
with the principal and faculty to integrate our curriculum and 
afterschool activities into the traditional scholastic program. These 
Coordinators go far beyond the job description and call of duty, 
however. Many spend extra hours tutoring their students in academics 
and helping them with college or job applications. They coach sports 
teams and run after school clubs. They become an accessible and trusted 
resource to the kids. HealthCorps' unique activism model works because 
kids influence kids best.
    In classrooms, Coordinators use personal anecdotes, fun activities 
and current events to drive home our message--value your body--it's the 
most important thing you'll ever inherit. And spread the word. Each 
school year we reach approximately 500 students through our in-school 
seminars and extracurricular activities--such as cooking clubs, expert 
guest speakers, pedometer competitions and yoga classes.
    HealthCorps is not just about our Coordinators doing service. It is 
about inspiring the HealthCorps students to do service learning as 
well--by participating in and organizing community wellness events. And 
by going out and spreading the word to younger kids and senior 
citizens. At Lehman High School in the Bronx, Coordinator Luke Martin 
takes his HealthCorps Students to Hunts Point Middle School to teach 
the younger kids stretching and cooking lessons that they have learned 
through HealthCorps. We even expect them to audit their refrigerators 
at home, taking the health conversation into families all over America.
    Through a partnership with USA Mentoring, founded by former New 
York First Lady Matilda Cuomo, we will be mobilizing volunteers of all 
ages to do one-on-one health coaching in our high schools as an extra 
support for our mandate.
    Through community and school-wide events, the program influences 
another 1,000 administrators, family members or friends. Our 
Coordinators and HealthCorps students organize community health fairs, 
step contests, Professional Development Nights, Parents Nights and 
more. In three boroughs in New York City and at Brown Stadium in 
Cleveland, OH, on Saturday, May 30, approximately 10,000 people will 
participate in our ``Highway to Health'' Fairs.
                            what we do works
    We know what we are doing is working. Our first efficacy study, 
which will be presented to an international conference this June, shows 
we significantly decreased students' consumption of soda and 
significantly increased their physical activity. As Dr. Andrew Weil's 
testimony on February 26th pointed out, soda will prove to be the 
number one culprit in the childhood obesity crisis and subsequent 
epidemic of Type II diabetes. Our most popular seminar shows students 
the actual amount of sugar that they are drinking in one can of soda 
and asks them whether they would eat it in its solid form.
    We also know we are expanding the conversation from campuses to 
communities. In Bryn Athyn, PA, the pedometers handed out through 
HealthCorps to the high school students created a ``pedometer craze'' 
in the entire town.
                          where we want to go
    Demand for the HealthCorps program outstrips our current ability to 
supply it.
    In 4 short years HealthCorps has grown by word of mouth among 
school administrators and local governments from two schools in the 
Northeast to 44 schools in seven States. Next year, we plan to be in 65 
schools in 12 States. There are hundreds of schools in all 50 states 
that would like our support if we could provide it.
    Similarly, there is a strong spirit of service on America's college 
campuses and college seniors are motivated to serve their community 
before returning for graduate or medical studies. Last year, we 
received 20 applications for each available Coordinator position. This 
year, we expect to receive 30+ applications for each available 
Coordinator position.
    We anticipate a buoyant future with 1,000 schools in 50 states by 
2012, where we'll reach 300,000 students and 750,000 family members and 
friends.
    In the not too distant future, through a potential retail alliance, 
we believe HealthCorps can play a part in shaping how consumers 
navigate their grocery store--analogous to a ``Consumer Reports'' 
recommendation.
    Additionally, since our participation in the February 26th Senate 
hearing on Integrative Medicine, we have begun exploring how the 
members of the HealthCorps Advisory Board can help to establish 
baseline requirements for an ``integrative health coach'' curriculum 
and accredited degree. This licensed health professional could 
communicate simple but invaluable messages that could hasten a 
patient's recovery, prevent a healthy person from developing a 
disorder, and assist a chronic disorder patient from developing 
disease. We support the establishment of a profession based on 
prevention rather than surgery or prescriptions.
         why and how we should be a model for national service
    If we reach our goals, and we believe we can, we'll activate 
communities through hundreds of local grassroots wellness events a 
year. And the founding principal behind this activation is service--
convincing people to give some of their time to show others what they 
have learned--in our case how to embrace simple changes that will 
endure for life and make this Nation a healthier happier one.
    The HealthCorps model is a ``shovel ready'' service program. It can 
scale quickly. It can adapt to the unique health concerns of individual 
geographies and neighborhoods. It can start making a difference on the 
ground immediately.
    The HealthCorps model is also uniquely positioned to serve as a hub 
or anchor for other community wellness and health initiatives. By 
working with the partners like the National Association of Community 
Health Centers (``NACHC''), we plan to soon give HealthCorps high 
school students the opportunity to do service learning at clinics in 
their communities. Also, our Coordinators will actively encourage 
graduating seniors to consider applying to do service at a clinic as a 
NACHC ``Community Healthcorps'' intern, funded through AmeriCorps.
    We are strategically partnered with hundreds of non-profits and 
other organizations across the seven States such as Donna Karan's 
Initiative Urban Zen, The United Federation of Teachers, The David 
Lynch Foundation, The Tiger Woods Foundation, The Kellogg Foundation, 
The Children's Aid Society and The Food Bank, the fitness industry and 
far too many to name here. We invite our partners to participate in all 
our community and school events because we know it is going to take a 
village to spark a wellness movement and fire up more people to give of 
their time and effort.
    HealthCorps' mission transcends an individual approach to curing 
poor lifestyle habits. We embrace a holistic community approach to 
health (psycho/bio/social)--
focusing significant work on changing the physical environment in the 
school and community.
    We are embarking upon several projects in conjunction with the 
Center for Disease Control (``CDC''), and are hoping to launch a ``Fit 
Town Challenge'' this fall--A wellness challenge to five large American 
communities with HealthCorps programs over the next 12 months to see 
who can actualize the greatest change in their towns to create an 
environment conducive to wellness. We will work with media partners to 
bring this challenge to a broad American audience.
    In schools, many HealthCorps Coordinators campaign for the removal 
of sodas in vending machines and the replacement of fried fatty foods 
in the cafeteria with more whole grain products, fresh produce and 
offerings of dark green lettuce and healthy seeds and nuts. Some 
students have also developed school and community gardens. In New York 
City, in partnership with Commissioner Frieden and New York City 
Department of Health and Mental Hygiene (``DOHMH'') HealthCorps 
students have surveyed offerings in local bodegas, as a way to identify 
neighborhoods needing more access to healthier choices.
    At HealthCorps, Senators, it is easy to be inspired by the concept 
of service. We are supported by active board members who give of their 
time and expertise--like Dr. Mike Roizen, Integrative Medicine 
visionary and Head of Anesthesiology for the Cleveland Clinic--people 
with unimaginably busy lives at the very top of their professions who 
still find time to give back. Celebrity athletes and performers have 
also joined HealthCorps in our national service mantra by speaking at 
community events and using the media to spread our message.
    I am supported by a seasoned staff of great folks who walk the talk 
and inspire me with their service in their personal lives every day. 
They have spent time at Teach for America, as grassroots activists and 
as HealthCorps Coordinators.
    But as Martin Luther King, Jr. once said ``Everybody can be great . 
. . because anybody can serve.'' I hope HealthCorps may contribute in 
some way to inspire more Americans to lose themselves in causes greater 
than themselves. I thank you for your time, and for your recognition of 
our program as well as all programs of national service.

    Senator Mikulski. That was excellent. Thank you.
    Now we want to turn to Michael Brown, the CEO of City Year. 
City Year was one of the first programs that really reached out 
to young people in a very new and contemporary way, brought 
them into service. We would like to hear your views on the 
current legislation proposed by Senators Kennedy and Hatch and 
how you have seen City Year's participants' lives were changed.
    I think what emerges from listening to these stories is 
that when people volunteer, their lives are changed, and many 
go on to the career in which they volunteered--health, 
education, other community services. And then the lives of the 
community is changed.
    Well, City Year is kind of--if we are the founding mothers 
and fathers, you are kind of the granddaddy of the social 
entrepreneur.

          STATEMENT OF MICHAEL BROWN, CEO, CITY YEAR, 
                           BOSTON, MA

    Mr. Brown. Thank you, Madam Chairwoman.
    We would not be on the verge of a dramatic expansion of 
national service without your tremendous leadership over the 
last 15 years. We are so tremendously grateful.
    Ranking Member Enzi, thank you for the bipartisan spirit 
and the speed with which you are moving this forward. It is 
incredibly exciting to see what is about to happen to the 
national service movement.
    Senator Dodd, your experience rooted in the Peace Corps has 
been promoting national service now for a generation that is 
moving us forward that is just at a rapid rate.
    And Senator Hatch, your investment in this has been 
extraordinary. As you mentioned, rooted in what was originally 
a spiritual journey now translated into the civic space. Your 
friendship with Senator Kennedy is a source of inspiration for 
all of us.
    There is a grateful field sitting behind me, and I had to 
sort of go through all that because we are tremendously 
grateful for this investment. Also Senator Harris Wofford is 
here, who is a tremendous leader, and we wouldn't be here today 
but for his leadership as well.
    I am from Boston, and I have had the full measure of 
Senator Kennedy's idealism and support behind City Year. City 
Year would not be in 20 cities today and had 10,000 graduates 
without Senator Kennedy every step of the way supporting the 
young people of City Year.
    I speak to you today not only as the CEO of City Year, 
which I founded with Alan Khazei in 1988, but also as a co-
leader of three coalitions that strongly support the Serve 
America Act--Voices for National Service, ServiceNation, and 
America Forward. We are tremendously inspired by President 
Obama's commitment to expanding opportunities for Americans to 
serve and by the leadership of Senator Kennedy and Senator 
Hatch and the bipartisan group of Senators who came together to 
introduce this legislation.
    In 1994, Congress created a dynamic and devolved national 
service system. Innovative governors' service commissions and 
nonprofit organizations, including Public Allies, the Bay Area 
Community Resources, Habitat for Humanity, Youth Build, and 
many others, have mobilized Americans in service through a wide 
variety of successful program models that are responsive to 
State and local needs.
    We need to expand opportunities for Americans to serve 
through these effective programs, and we also need a new 
platform to engage the American people in addressing some of 
the most persistent problems facing our country. The Serve 
America Act, by strategically expanding national service, can 
play a vital role in expanding opportunities for people at 
every life stage to put their idealism and their civic skills 
to work to solve specific national challenges.
    It is especially important to provide opportunities for 
America's youth to serve. A new study, ``The Quiet Crisis,'' 
reports that youth unemployment hit 21 percent. For African-
American youth, that number is now 36 percent.
    At the same time, applications for national service 
organizations like Teach for America and here at City Year are 
at record levels. National service programs stand ready to 
engage Americans, young Americans in particular, in productive 
work at low cost and with no new bureaucracy.
    At a time when the brave men and women of the U.S. military 
are putting their lives on the line overseas to protect our 
freedom and values, Americans should be asked to serve on the 
home front as well, addressing the major national problems of 
our time.
    Consider the high school dropout crisis. Every 26 seconds, 
a young person drops out of high school, producing 1 million 
dropouts every single year. The resulting price tag is more 
than $150 billion for each cohort of dropouts, who are three 
times more likely to be unemployed and eight times more likely 
to be incarcerated.
    According to recent research by Johns Hopkins University, 
just 15 percent of the Nation's schools produce nearly half of 
the Nation's dropouts. We know where these schools are and 
which students need the help most.
    It is possible to identify likely dropouts as early as the 
sixth grade by three off-track indicators--low attendance, poor 
behavior, and course failure in math or English. We also know 
how to get them back on track, by getting the right 
interventions to them in the right time.
    In the case of City Year, our corps members are deployed 
full time in teams to work against these off-track indicators 
in high-poverty schools, helping children through academic 
support, school climate activities that improve attendance and 
behavior, and afterschool programs that re-inforce classroom 
learning and promote community service.
    Our corps members are in the schools from 8 a.m. until 6 
p.m., when the last afterschool program ends. That change of 
having caring adults in their lives throughout the day can be a 
transformative resource for a school.
    This is just one of the many examples in which national 
service could be scaled as part of a dedicated Education Corps 
established under the Serve America Act using a set of common 
metrics and data that could be aggregated nationally.
    Similarly, the Opportunity Corps would enlist Americans to 
address poverty by providing job training and financial 
literacy and by building housing for families struggling to 
make ends meet.
    A new Clean Energy Corps would improve energy efficiency in 
low-income homes and care for the environment, building the 
green economy and mobilizing Americans as stewards of our 
natural resources.
    A Healthy Futures Corps could improve access to healthcare 
and increase health literacy for low-income Americans.
    In addressing each of these issues, national service 
participants would bring a unique resource--skilled, committed, 
affordable, and often full-time human capital. There are also 
millions of Americans who cannot serve full time, but who can 
make vital contributions to communities by volunteering their 
time.
    A new Volunteer Generation Fund in the Serve America Act 
would expand the supply of volunteers to nonprofits and build 
the capacity of organizations to manage and deploy them. 
Organizations like the Points of Light Institute HandsOn 
Network stand ready to deploy thousands of new volunteers to 
meet pressing community needs.
    The Serve America Act will also establish a Community 
Solutions Fund, also known as the social innovation fund, to 
invest in and scale the proven innovative solutions that are 
already having an impact in communities across the country.
    In addition to these new initiatives in the act, I want to 
thank you and thank the committee for taking up reauthorization 
of national service. We have shared a number of ideas with the 
committee to simplify the AmeriCorps program, including 
expanding the use of fixed-price grants, streamlining member 
reporting requirements, and increasing the Segal AmeriCorps 
award. Reforms will move service in America forward, stimulate 
community volunteering, and increase the diversity of those who 
serve.
    In closing, I want to share with you three final thoughts 
about the importance of passing the Serve America Act. First, 
the Serve America Act funds programs on a competitive basis and 
places a premium on expanding programs that show results.
    Second, we know that national service leverages significant 
private investment. Over the past 15 years, more than $2 
billion has been invested in AmeriCorps programs by 
corporations, philanthropies, and private citizens. At City 
Year, we have had over $100 million invested by the private 
sector, and nine companies have invested more than $1 million 
in us. The Serve America Act will leverage billions more in 
private support for national and community impact.
    Finally, in addition to the significant benefits that 
national service participants deliver to communities, an 
investment in national service is also a long-term investment 
in American citizenship itself. The Serve America Act at its 
peak will triple the number of national service participants to 
a quarter million members annually.
    Every 4 years, a million more Americans will have had an 
intensive service experience that will transform them into 
citizen leaders for life. That is a powerful investment in the 
civic skills and leadership of each new American generation.
    Thank you for your leadership in advancing national and 
community service.
    [The prepared statement of Mr. Brown follows:]
                  Prepared Statement of Michael Brown
    I am honored to be invited to testify before the committee today. I 
want to thank committee Chairman Senator Edward Kennedy, Ranking Member 
Senator Michael Enzi and Senator Mikulski for the invitation to testify 
today, and for holding this important hearing on ``The Next Generation 
of National Service'' and the Serve America Act.
    As a Bostonian who has known and benefited from the full measure of 
Senator Kennedy's tremendous idealism and public spiritedness for over 
two decades, I want to begin by saying how deeply grateful I am to the 
committee chairman. Since we founded City Year in 1988 Senator Kennedy 
has been our greatest champion, and his dedication to public service 
has been a deep source of inspiration. All of us at City Year and in 
national service organizations across the country are deeply grateful 
to Senator Kennedy and Senator Hatch for their visionary leadership in 
crafting a bold new platform for service in our country, the Serve 
America Act.
    Senator Mikulski, as the ``godmother of national service,'' every 
American community owes you a debt of gratitude for your steadfast 
dedication to providing opportunities for the citizens of this country 
to serve. Senator McCain, thank you for your leadership in championing 
the growth of AmeriCorps for over a decade through the McCain-Bayh 
bill, and your original co-sponsorship of the Serve America Act. 
Senator Dodd, thank you for your deep commitment to growing service 
opportunities for all ages, based on your own transformative experience 
as a returned Peace Corps volunteer. Thank you Senator Harkin for your 
deep commitment to national service programs across the country.
    I also want to give a special thank you to our ``City Year 
Senators'' on the committee for your strong support for City Year 
programs across the country, including Senator Casey for your support 
for City Year Philadelphia, Senator Gregg for your support for City 
Year New Hampshire, Senator Murray for your support for City Year 
Seattle, and Senator Reed for your support for City Year Rhode Island. 
A special thank you to Senator Brown, not only for your support for two 
City Year programs in Ohio, but especially because Senator Brown is a 
City Year dad and we are proud that his daughter is a City Year alum.
    Operating in 19 U.S. cities and Johannesburg, South Africa, City 
Year unites young people of all backgrounds for a year of full-time 
service, giving them skills and opportunities to change the world. The 
name City Year reflects that idea that just like young people 
participate in freshman, sophomore, junior and senior years as vital 
parts of their development, we believe that young people should be 
challenged to give a ``City Year'' of service to their community and 
country, as a civic rite of passage to build a strong democracy. All of 
City Year's more than 1,500 U.S. corps members are proud members of the 
AmeriCorps national service network. To date, City Year has graduated 
more than 12,000 alumni, who have dedicated nearly 20 million hours of 
service in high poverty schools, neighborhoods and community centers 
nationwide. Our vision is that one day the most commonly-asked question 
of a young person will be, ``Where will you do your service year?''
    I speak to you today not only as the CEO and co-founder of City 
Year, which I founded in 1988 with Alan Khazei, but also as a co-lead 
organizer of three national coalitions that represent widespread 
support for and endorsement of the Serve America Act: Voices for 
National Service, ServiceNation and America Forward.
    The mission of Voices for National Service is to support the growth 
and development of AmeriCorps and national service by mobilizing the 
field to educate our Nation's leaders and the American public about the 
power and impact of national service. ServiceNation, a campaign to 
inspire a new era of voluntary citizen service in America, is a 
coalition of more than 130 organizations representing more than 100 
million Americans. It is organized by Be the Change, City Year, Civic 
Enterprises, and The Points of Light Institute. ServiceNation was 
honored that Senator Hatch and Caroline Kennedy, on behalf of her 
uncle, Senator Kennedy, publicly announced their bi-partisan 
introduction of the Serve America Act at the ServiceNation Summit on 
September 12 in New York City. America Forward, organized by New 
Profit, Inc., is a coalition of results-oriented entrepreneurial 
nonprofits presenting the Nation's leaders and citizens with new, 
innovative ideas for solving our domestic problems.
    On behalf of Voices for National Service, ServiceNation and America 
Forward, I am pleased to attach to this testimony a copy of a letter 
endorsing the Serve America Act and signed by 412 nonprofit 
organizations working nationwide to make America stronger.
    We endorse the Serve America Act because national service is a 
great American invention and institution--and the Serve America Act 
will make it stronger. National service gives Americans of all ages and 
backgrounds the opportunity to participate in the creation of ``a more 
perfect union,'' and to channel their civic passion and energies to 
address some of our Nation's most pressing problems.
    The idea of national service has had strong bipartisan leadership 
and support in the White House and the Congress, from the creation of 
the Civilian Conservation Corps under President Franklin Delano 
Roosevelt to the establishment of the Peace Corps under President 
Kennedy, and through the administrations of President George H.W. Bush, 
who founded the Commission on National and Community Service and the 
Points of Light Foundation, President Clinton, who launched the 
Corporation for National and Community Service and AmeriCorps, and 
President George W. Bush, who founded the USA Freedom Corps and 
expanded AmeriCorps. We are all tremendously inspired by President 
Obama's commitment to expanding opportunities for Americans to serve. 
We believe that the groundswell of bipartisan support surrounding The 
Serve America Act indicates the growing desire of Americans to be part 
of solving the great challenges we face as a nation.
    Congress has created a dynamic and devolved system of national 
service that has included a wide variety of successful program models 
and approaches and has been tremendously responsive to State and local 
needs. National service participants, deployed through innovative State 
service commissions and nonprofit organizations, have taught, tutored 
and mentored children, built affordable housing, created and 
refurbished trails and parks, weatherized low-income housing, helped 
low-income citizens gain access to health care and contributed to the 
health and well-being of our communities in many other important ways.
    We need to expand opportunities for Americans to serve through 
these effective programs, and we also need a new platform to engage the 
American people in addressing some of the most pressing and persistent 
problems of our time. The Serve America Act, through a strategic 
expansion of national service, can play a vital role in expanding 
opportunities for people at every stage of life to serve and to put 
their idealism and civic skills to work to solve specific national 
challenges. It will augment--not replace--the impact of the 
foundational Federal investment in national service through the 
Corporation for National and Community Service and its programs, 
including AmeriCorps. These programs are critical and enable States and 
localities to direct resources to the specific needs and priorities of 
their communities.
    It is no secret that we face tremendous challenges as a country, 
many made worse by the declining economic climate. The need for more 
opportunities in national and community service is greater than ever--
both to address essential needs and engage Americans, especially young 
Americans, in productive work. A new study, ``The Quiet Crisis, The 
Impact of the Economic Downturn on the Nonprofit Sector,'' reports that 
phone calls to the United Way for basic needs, such as securing food, 
shelter and warm clothing are up by more than 10,000 calls a month 
compared to 2007, while financial contributions to nonprofits are 
declining. The study also reports that youth unemployment has already 
hit 21 percent--and for African-American youth that number reaches 36 
percent. Unemployment, even among college graduates, is at the highest 
level ever. At the same time, applications for national service 
organizations like Teach For America and City Year are at record 
levels. National service programs stand ready to engage young Americans 
in productive work at low cost, and with no new bureaucracy.
    We are at a moment in our country where we must marshal every 
available resource to address the mounting challenges we face. From the 
economic downturn to the crisis in education, we must call on every 
American to join the cause, to step forward and lend a hand. At a time 
when the brave men and women of the U.S. military are putting their 
lives on the line overseas to protect our freedom and values, Americans 
should also be asked--and provided with the opportunities to--serve on 
the homefront as well to confront the Nation's most pressing domestic 
challenges and exemplify our Nation's values. And the truth is 
Americans are stepping forward to serve--Teach For America has 35,000 
applicants for just 4,000 positions--11 percent of the entire Ivy 
League's senior class and 25 percent of Spelman College's applied this 
year alone. Applications to City Year have increased 180 percent over 
last year. Peace Corps applications have risen 16 percent. Millennials 
and boomers are stepping forward in record numbers to serve.
    We need to tap into this tremendous civic energy--and provide more 
opportunities for Americans to meet America's challenges by focusing 
their service on solving major national problems. That is what the 
Serve America Act does.
    Consider the high school dropout crisis, which retired general 
Colin Powell has called a ``national catastrophe.'' Every 26 seconds, 
another student gives up on school, producing 1 million American 
dropouts annually. The result is a price tag of more than $150 billion 
for each cohort of dropouts--who are three times more likely to be 
unemployed and eight times more likely to be incarcerated. Students who 
drop out of high school earn on average $1 million less over their 
lifetime than their peers who complete high school and go on to 
college.
    According to recent research by Johns Hopkins University, just 15 
percent of the Nation's schools produce nearly half of the Nation's 
dropouts. We know where these schools are, and we know which middle 
schools feed into them. We also know which students need help the 
most--it is possible to identify likely dropouts as early as the 6th 
grade by three ``off-track indicators'': low attendance, poor behavior, 
and course failure in math or English. We also know how to get them 
back on track to graduate--by getting the right interventions to them 
at the right time. Dr. Robert Balfanz of Johns Hopkins University, the 
lead researcher on the Johns Hopkins study, has stated that, in solving 
the dropout crisis, ``There is a key role to be played by national 
service.'' Dr. Balfanz states that ``we need to mobilize the young 
adults in this Nation to work together to give their near peers--who 
are half a generation younger than them--the leg up they need to stay 
in school, to complete their courses, to learn how to behave well, by 
being a role model, and to say it's worth it.''
    Research shows that continuous support from trained and dedicated 
adults working in schools as tutors and mentors works. We also know it 
works because we've seen it work--at City Year and at other national 
service programs across the country, including Citizen Schools, College 
Summit, Communities In Schools, Jump Start, and Teach for America.
    In the case of City Year, corps members are deployed full-time in 
teams throughout the school year to work in high-poverty schools, 
helping children through direct academic support, including literacy 
and math, school climate activities that improve attendance and 
behavior, and afterschool programs that re-inforce classroom learning 
and promote community service. Based on this model and the results of 
our work in schools, we have received requests from local school 
superintendents, including New York City Department of Education 
Chancellor Joel Klein and District of Columbia Public Schools 
Chancellor Michelle Rhee, to scale our program significantly as a means 
of ensuring school success and keeping students on track to graduate. 
Our Whole School Whole Child program is just one example of the many 
important national service approaches that could be scaled as part of a 
dedicated Education Corps, established under the Serve America Act, 
using a set of common metrics and data that can be aggregated 
nationally.
    Similarly, an Opportunity Corps could enlist Americans of all 
backgrounds to address both urban and rural poverty through increasing 
access to job training and placement resources, increasing the 
financial literacy of economically disadvantaged individuals, building 
or improving housing--assistance needed more than ever as our Nation 
faces a significant economic recession and more and more families find 
themselves unable to make ends meet.
    A Clean Energy Corps would improve energy efficiency in low-income 
homes and care for natural resources, building the green economy and 
mobilizing Americans as stewards of the Nation's natural resources. A 
Health Corps could improve access to health care and increase health 
literacy for low-income Americans.
    In addressing each of these issues, national service participants 
would bring a unique resource: skilled, committed, affordable and often 
full-time human capital. Corps members in the Education Corps, for 
example, would provide a diverse workforce serving full-time in 
schools--in large cohorts and in the unique role of working with 
students from the first bell at 8 a.m. through the close of the 
afterschool program at 6 p.m.--which increases the adult to student 
ratio in schools, at the required scale and intensity. That would be a 
transformative resource for high poverty schools across the country.
    National service can also promote workforce readiness as corps 
members receive extensive training to prepare them for their service 
that can also benefit them in their future careers. National service 
corps members are motivated, understand hard work, are focused and 
efficient, and gain practical experience in problem solving and working 
with people from diverse backgrounds. Their ``real world'' experience 
at a young age will serve as a valuable asset to both themselves and 
their employers for years to come.
    There are also millions of Americans who cannot serve full-time, 
but make vital contributions to communities by volunteering part-time 
through religious organizations, mentoring or nature conservation 
programs, at food banks or in homeless shelters--and many more people 
who are ready to serve but opportunities for them to do so may be 
limited due to lack of capacity on the part of nonprofits in recruiting 
and managing volunteers. A Volunteer Generation Fund in the Service 
America Act would expand the supply of volunteers to nonprofits as well 
as build the capacity of nonprofits to utilize these volunteers, 
resulting in an influx of many more citizens of all ages in service to 
meeting the needs of their communities. Organizations like the Hands On 
Network and Points of Light Institute are ready to tap the Volunteer 
Generation Fund to deploy thousands of new volunteers to meet pressing 
needs.
    Similarly, many Americans want to apply their professional skills 
and experience to address critical needs in health and education across 
the globe but cannot commit to long-term assignments such as the 2 
years required by the Peace Corps. A strengthening of Volunteers for 
Prosperity, an initiative established in 2003 as part of the USA 
Freedom Corps, would expand opportunities for short-term service to 
provide assistance across the developing world in identified areas of 
need, while enhancing America's international standing.
    The Serve America Act will also establish a ``Community Solutions 
Fund'' (or a Social Innovation Fund) to invest in and scale the proven, 
innovative solutions that are having an impact in communities across 
the country. The Fund will promote greater innovation in the social 
sector and evaluate performance based on results. And because citizen 
service so often generates new ideas and solutions, the act establishes 
Innovation Fellowships to enable individuals who have completed either 
a civilian national service experience or are veterans to launch a new 
civic initiative. The act will also call on the Boomer generation to 
use its experience to innovate for the common good with the help of 
Encore Fellowships.
    And just as the government regularly assesses economic progress 
through standard indicators, the Service America Act would establish a 
Civic Health Index--a critical new tool for taking the Nation's civic 
pulse across the areas of volunteering and community service, voting 
and civic engagement, and understanding of U.S. history and government, 
among other categories. The resulting information would inform 
policymakers and communities alike as to the Nation's civic health at 
the local, State and national levels and promote progress towards 
strengthening the civic habits of our democracy.
    In addition to considering these new elements of national service, 
I want to thank the committee for taking up the reauthorization of The 
National and Community Service Trust Act and the underlying bills. It 
is very important to update the architecture on which these new ideas 
will be built. Nearly 16 years have passed since the enactment of the 
act, the last national service bill. Since then, the field has learned 
many lessons that can be drawn on to optimize the organization and 
structure of the existing programs and prepare the national service 
infrastructure for expansion. Through reauthorization, Congress has the 
opportunity to make changes that will unleash program potential. 
Reforms will allow more Americans to serve, stimulate community 
volunteerism, increase the diversity of those serving, and modernize 
the program to recognize new needs and resources resulting from the 
changing demographics and economic circumstances.
    If AmeriCorps is to achieve the scale described by President Obama, 
nonprofits and State commissions must have greater flexibility to 
effectively administer the program. Current requirements are 
administratively burdensome and in many cases prohibitively expensive, 
making AmeriCorps nearly inaccessible to small nonprofits. We have 
shared a number of ideas with the committee to reduce the 
administrative burden and simplify the AmeriCorps program. These ideas 
include revising the formula for AmeriCorps assistance and approved 
national service positions, expanding the use of Fixed Price Grants, 
streamlining member management reporting requirements and increasing 
the Segal AmeriCorps Education Award.
    The post-service Segal AmeriCorps Education Award was established 
in 1993 and because the formula for calculating it was set in statute, 
its value has been frozen while the cost of higher education has 
skyrocketed. As students and their families are being priced out of the 
college market, the AmeriCorps Education Award has remained static at 
$4,725. The Education Award should continue to be a valuable and 
compelling incentive for young people to serve and we support indexing 
the award to increase its purchase power.
    Another challenge is that the Education Award is viewed differently 
than most other forms of scholarships and fellowships--including Pell 
grants and the G.I. Benefit--and is subject to Federal taxation. 
According to the Congressional Research Service, the AmeriCorps 
Education Award can be taxed at a rate of 15 percent or more. As a 
result, AmeriCorps members see the value of their college aid drop to 
$3,528 or less after taxes. Senators Dodd and Cochran have introduced 
legislation that both increases the value of the award and makes it tax 
deductible, ensuring that the full value can be applied to the pursuit 
of higher education.
    In closing, I want to share with you three final thoughts about the 
importance of passing the Serve America Act.
    First, the Serve America Act funds programs on a competitive basis 
and places a premium on expanding programs that show results--in 
helping children succeed in school, in reducing energy usage, in 
providing access to healthcare, in helping people gain the skills they 
need to climb out of poverty.
    Second, we know that national service is highly cost effective and 
leverages significant private investment. Over the past 15 years, more 
than a billion dollars has been invested in AmeriCorps programs by 
corporations, philanthropies and private citizens. At City Year, nine 
companies--ARAMARK, Bank of America, Cisco, Comcast, CSX, Pepperidge 
Farm, PepsiCo, Timberland, and T-Mobile--have each invested more than a 
million dollars and engaged their employees in thousands of hours of 
community service. The Serve America Act will leverage billions more in 
private support for service and community impact.
    Finally, in addition to the significant and immediate benefit that 
national service participants deliver to communities, an investment in 
national service is also a long-term investment in American 
citizenship. An independent study funded by The Atlantic Philanthropies 
and conducted by Policy Studies Associates found that City Year alumni, 
compared to similarly situated individuals in the national population, 
were 65 percent more likely to be engaged in volunteer activities and 
45 percent more likely to vote, and that more than 90 percent of alumni 
reported that their service experience contributed to their ability to 
work as part of a team and work with people from diverse backgrounds. 
Three-quarters of alumni reported that their service experience 
contributed to their ability to solve problems in their communities. 
The Serve America Act will, at its peak, triple the number of national 
service participants to 250,000 members annually--meaning that every 4 
years a million more Americans will have had an intensive service 
experience that will transform them into citizen leaders for life. That 
is a powerful investment in the civic skills and leadership of each new 
American generation.
    This landmark legislation comes at a pivotal juncture for us as a 
nation. We face an economic crisis of historic and worldwide 
proportions with millions of lost jobs, and millions of lives in 
economic peril with profound social implications. At the same time, 
there is a significant desire on the part of Americans--young and old, 
from all walks of life--to help address the challenges facing the 
country through serving their communities and building a stronger 
future for all of us. The Serve America Act will provide a 
transformational investment of resources to enable Americans to act on 
their desire to serve and put their passions and skills to work to 
address critical issues that will have a significant and restorative 
impact on our country both in the near-term and for many years to come.
    Thank you for your leadership on national and community service. I 
hope you will give the Serve America Act your full consideration and 
pass and fully fund it.
    Thank you for inviting me to speak with you today.

    Senator Mikulski. Thank you very much, Michael.
    To our committee, we have been joined by Senator Dodd and 
also Senator Isakson of Georgia. As you know, Senator Dodd has 
been in and out because of banking responsibilities, and I 
think you might have to return.
    Also what is so interesting is here on the committee, many 
of your Senators have served. Senator Dodd in the Peace Corps. 
I have spoken often about the fact that I have a master's 
degree in social work. I taught at the very first VISTA 
training school in Baltimore, did my own volunteer work. Would 
go into the Baltimore city jail on Monday nights to work with 
women to help them do their discharge planning, all the way 
through to the grassroots group I started that stopped a 
highway and transformed a neighborhood.
    Senator Hatch's call to service as a Mormon. Senator 
Rockefeller is a VISTA volunteer. Of course, the people like 
John McCain who served in our military.
    We are all called to service in different ways, and I think 
what you have said as a panel and what we who, ourselves, have 
served in our own way, it was transformational. It changed our 
lives.
    Instead of leading off with questions, how about if I turn 
to you, Senator Dodd? Then go to Senator Enzi, and then we will 
go back and forth.

                       Statement of Senator Dodd

    Senator Dodd. Well, thank you, Senator.
    I will be very brief, and I apologize to our witnesses and 
to my colleagues for not being here at the outset to hear all 
of this.
    I want to thank Senator Mikulski, first of all, for her 
leadership here. Second--obviously it has been pointed out by 
many--I'd like to thank my friend, Senator Kennedy, who cares 
so deeply about these issues we've worked on together over the 
years. I know many of you on the panel here already and have 
worked with you at various times over the years on these 
issues.
    Barbara Mikulski has said it well. This joins a lot of us 
together, regardless of how we come to the table. The fact is 
we have journeyed through various experiences that have led us 
to the conclusion that there is nothing more ennobling and 
nothing that contributes more to our country than to invite 
people to serve their Nation.
    I don't think each generation is substantially different on 
this issue. I think every generation wants to be asked. As 
Harris Wofford has heard me say probably a million times over 
the last 40 years, when I have been asked why did I join the 
Peace Corps, the very simple answer I have given for 40 years 
is someone asked me to. An American president did.
    He invited a generation of us to be involved in something 
larger than ourselves, and it was tremendously exciting to be 
asked. Some went into the military. Some went into domestic 
programs here at home. Others went into the Justice Department. 
People found different ways to serve their country.
    Over the years, I have felt a deep resonance with this 
desire to serve. Ronald Reagan was the one American president 
in the last 25 or 30 years that increased the Federal budget 
for the Peace Corps every single year during his 8 years in the 
presidency. This issue transcends traditional politics when it 
comes to support for these efforts.
    I would just mention briefly and Thad Cochran and I have 
introduced a series of bills called Service for All Ages, and 
Mr. Strong knows about this because the Experience Corps 
program is a great example--in fact, Mozelle Vann, who is one 
of your members, came and testified when Thad Cochran and I 
introduced our three bills with Rosa DeLauro, congresswoman 
from the New Haven area of Connecticut.
    We have what we call the Summer of Service, the Semester of 
Service, and the Encore Service Program, the idea being to 
reach out and invite people of all ages to participate. Now, we 
believe very strongly that even young children can learn the 
great joys of giving at a very young age. A Summer of Service 
or a Semester of Service would provide exactly that 
opportunity.
    We can't talk about expanding service opportunities without 
talking about the AmeriCorps program. Last year alone, 75,000 
AmeriCorps members gave back to their communities. They brought 
reinforcements--recruiting another 1.7 million community 
volunteers to work alongside them. Which is why my friend, Thad 
and I also introduced a bill to raise the Segal AmeriCorps 
Education Award each year as the cost of college increases. 
It's an idea that has caught on and we're pleased it was 
incorporated into the Serve America Act.
    Obviously, the Peace Corps is something that I have a 
special affection for. I was also a Big Brother, involved in 
the Big Brothers program nationally a number of years ago; I 
feel very strongly about these types of domestic programs.
    Finally, the Peace Corps is a special program to me. We 
have some ideas that I have shared with Senator Mikulski about 
how we might move beyond where we have been for 40 years and 
work to increase our engagement with the volunteers and return 
volunteers. The great goals of the Peace Corps always focused 
on engagement, which we have never done as well on as I think 
the President intended when he authored the program.
    Harris told me and my colleagues a wonderful story, about 
that day in 1961, when the first volunteers gathered on the 
South Lawn of the White House, and President Kennedy gave them 
a great farewell to go off into Africa to do their work. He 
went back into the Oval Office, as Harris tells the story, and 
with a small group of people there said,

          ``This is going to be a remarkable program.''
          ``And just think, 45 or 50 years from now''--
        basically where we are--``there will be a million 
        people who will have returned from serving their 
        country overseas, getting to know the world better, 
        getting the world to know us better, and coming back 
        and educating their neighbors and friends in 
        communities as a result of their experience.''

    Well, about 180,000 of us, far short of the million that 
President Kennedy envisioned in 1961, have come back as 
volunteers. It has contributed, I think, in no small measure to 
our own incredible benefit as individuals, not to mention, I 
think, the country as well. How we can expand that opportunity 
is something we would like to include as part of this effort.
    I thank all of you for what you are doing. As well, it is 
good to see all of you. Marc, it is good to see you. Alan, whom 
I know so well. And others--Michael, we thank you for your 
service as well.
    Madam Chairman, I look forward to working with you, doing 
whatever I can do in the coming days to help this become a 
reality.
    [The prepared statement of Senator Dodd follows:]

                   Prepared Statement of Senator Dodd

    First, thank you to Senator Mikulski for allowing me to 
come and speak quickly about the important role that national 
service will play in meeting the challenges that we face.
    Senator Kennedy and Senator Mikulski share my commitment to 
service. I am so pleased to have the opportunity to work so 
closely with both of them to expand service opportunities for 
all ages.
    I want to apologize for not being able to stay longer and 
listen to the compelling testimony of the witnesses before us 
today, but I am glad that I am able to speak for a moment about 
the unique moment in which we find ourselves.
    As you may know, a few weeks ago Senator Thad Cochran and I 
re-introduced our ``Service for All Ages Initiative.'' We are 
joined by my good friend Representative Rosa DeLauro in the 
House of Representatives in introducing these bills. I would 
also be remiss if I did not mention that I am a proud original 
cosponsor of the Serve America Act.
    When Congresswoman DeLauro and I introduced these bills, we 
heard from three phenomenal women from Connecticut who all 
served their communities in very different ways, but all told 
the same story-that engaging in meaningful service had changed 
their lives.
    I heard from Mozelle Vann, from Hamden, Connecticut, who 
tutors elementary school children in literacy. She's one of 
more than six thousand older Americans engaging in service in 
Connecticut.
    She told us about the creative ways she has helped one 
student, Bobby, improve his reading. She saw, one day, that his 
eyes were jumping around the page, from line to line, when he 
read. So she brought into school brightly colored pipe cleaners 
to put beneath each line that Bobby was reading-and he became 
more focused and his reading improved.
    That's the kind of results we get from service. That's the 
kind of change that we make in the lives of others when we give 
of ourselves.
    We also heard from Latoya Braham, a senior at the 
University of Connecticut. She volunteers with Big Brothers Big 
Sisters, as I did many years ago.
    She told us that she's come so far in her life-but that she 
remembers where she's from. She feels she must give back to her 
community-and she wants to encourage others to do the same. 
Through her service, she's engaging others in service.
    I share, with these remarkable women, a commitment to 
service. My service in the Peace Corps was the opportunity of a 
lifetime, and it helped me realize how important it is to give 
everyone the opportunity to serve.
    Those of us who serve, we know that we are linked by our 
common experiences.
    We are tied to the communities in which we serve.
    We are committed to expand service opportunities to others.
    And, especially during times like these, we cannot forget 
the impact service can make.
    Whatever the challenge, we know that there are dedicated 
Americans ready to meet it. This is our nation's most precious 
resource-the resolve of its citizens.
    Our responsibility, today, is to provide opportunities for 
ordinary Americans to do extraordinary things. From middle 
school students to retirees, we ought to give everyone the 
opportunity to serve their communities.
    And so, the Dodd-Cochran Service for All Ages Initiative, 
and the Serve America Act, will do just that. Regardless of 
age, income, or ability, if Americans have the desire to serve-
we want to give them the opportunity to do so.
    I'm pleased that our President has made such a strong 
commitment to national service, and I look forward to passing 
legislation that will expand service opportunities to people of 
all ages.
    Thank you, Madam Chairman.
    Senator Mikulski. Did you have a question?
    Senator Dodd. Well, you know----
    [Laughter.]
    We will submit our questions. I have several of them, 
obviously. The one thing I think is important to recognize is 
that for every dollar spent on service, you receive a much 
greater return--some people are not impressed with how much 
good comes out of this.
    I think with AmeriCorps, one of the things we have 
learned--and with City Year--is how many additional people we 
encourage to serve, the sort of radiation effect. In addition 
to the ones who serve through AmeriCorps, we also engage a 
million other volunteers. For every dollar spent, we are told 
that there is about a $4 return on our investment.
    Senator Mikulski. Is that a question?
    Senator Dodd. That is a question. To what extent do you 
feel that it is valuable to discuss these dollar numbers in 
response to those who raise the issue that this effort and 
initiative, may have some costs associated with it? Because, if 
you are only impressed by budgetary numbers, then I think these 
numbers here directly contribute to that argument. Any 
particular comments you want to make on that, Michael?
    Mr. Brown. Thank you, Senator.
    We have engaged over a million young people--I am sorry. We 
have had 10,000 people in our program, and a million volunteers 
have been leveraged through it by sort of--it is hundreds of 
millions of dollars of value-added.
    In addition, the human capital that goes through 
organizations like City Year and so many others, they get 
trained up, and they are now part of Public Allies, and they 
are part of Citizen Schools, and they are leading other 
organizations. Essentially, there is a training element that is 
happening with regards to national service.
    We know that there is going to be a need for many more 
leaders in the nonprofit sector, and national service is a way 
of getting that leadership cohort ready.
    Senator Dodd. That is great. Thank you.
    Senator Mikulski. Thank you. Senator Enzi.
    Then after Senator Enzi, we are going to go in the order of 
arrival--Hatch, Isakson. Then I will turn to Senator Murray, 
and I will be the wrap-up before the votes. Keep your seatbelts 
on.
    Senator Enzi.
    Senator Enzi. Thank you, Madam Chairman. This has been a 
very inspiring hearing.
    I will get right to my questions. I have been impressed 
with the faith-based initiative, but Mayor Goldsmith, you have 
had more involvement with what is actually in these programs. 
Has the inclusion of faith-based programs served a purpose? Has 
it been useful?
    Mr. Goldsmith. Thank you, Senator.
    We have consciously over the last 8 years attempted to 
level the playing field. There are two ways that this comes 
about. The one is in terms of regulations. The other is in 
terms of bureaucracy because, as you know, a small 
organization, faith-based or otherwise, often doesn't have the 
wherewithal to deal with the bureaucratic rules that the 
Federal Government requires.
    Over the last several years, we have involved more and more 
faith-based organizations, and this bill will allow us to even 
more simplify the process of dealing with--between the Federal 
Government and those organizations.
    Last, as your question suggests, Senator Enzi, the most 
frequent path to service is through a religious institution. It 
is the most common path of service.
    The extent to which we can leverage those organizations in 
their homeless work or the domestic sheltering work or their 
food pantry work, we gain a lot of participation. We are making 
steady progress, and I think we could do a better job.
    Senator Enzi. Thank you. Very helpful.
    Governor Racicot, a neighbor. I loved your comment about 
not being at the end of the world. I am from Wyoming. I have 
approximately the same view.
    [Laughter.]
    Wyoming and Montana are very rural, in fact, I think 
frontier. Our largest city, of course, is Cheyenne. It is 
slightly over 50,000 people, and every city that we have, you 
can go outside and you can see the whole thing at once.
    Of course, when I am talking about cities, we have 14 
cities where their population exceeds their elevation.
    [Laughter.]
    Since you have served as the governor of Montana, could you 
comment on the unique challenges confronting rural communities 
as they seek to encourage volunteerism and civic engagement?
    Mr. Racicot. Well, they are unique, unique problems, of 
course, with a great many people spread out over large 
distances. Of course, if you are going to utilize an equation 
or a mathematical formula that is built upon a national scale, 
you may not always be able to draw comparisons that are 
meaningful and effective.
    In addition to that, of course, as you in Wyoming, we have 
a great many Native populations in the State of Montana. We 
have 13 different tribes and 7 different reservations. As a 
consequence of that, we have Native populations that are there, 
and they obviously need to be served just like virtually every 
other American community. We have unique opportunities to do 
that, but it is not always contemplated or hasn't been always 
contemplated that those populations may be some of the most 
commanding in terms of need and necessity.
    There are special challenges. To be quite honest with you, 
Senator Enzi, we found those were surmountable. If we were 
aggressive, if we were open, if we were persistent, we were 
heard, just as others were heard. We had just as much 
opportunity to take advantage of the resources that were 
offered.
    We utilized them for specific needs from fighting fire to 
mentoring young people in our rural communities. Frankly, there 
is an equality of opportunity here, even in rural States, for 
those of us who believe in the program and its ultimate 
capacity.
    Senator Enzi. Thank you.
    We have limited time. I kind of have to skip around here, 
and I would like to call on Chairman Solomont.
    There are a number of proposals for expanding the scope of 
programs authorized in the national service statutes. Given 
this expansion, what advice would you offer on how to improve 
or build on these programs while strengthening the financial 
accountability and respecting the fiscal limitations? As the 
accountant of the Senate----
    Mr. Solomont. Well, one of the unique characteristics of 
the Corporation for National and Community Service is the 
bipartisan board that was created when the corporation was 
originally created in 1993. The board has played a very 
important role in oversight, I think, as Madam Chair knows.
    Because when there have been management concerns or 
concerns about how we have managed our resources, I think that 
that has heightened the attention of the board. We have a very 
active Management, Audit, and Governance Committee that really 
rolls up their sleeves and gets into the weeds on these issues 
quite a bit.
    We are now faced with the challenge of allocating funds 
that have been entrusted to us through the stimulus package, 
$200 million, which will increase AmeriCorps by about 16,000 
members. We are proceeding responsibly and steadily and not 
trying to manage more than our capacity allows us. I think that 
will set us on the glide path to create a better capacity to 
manage the kind of growth that this legislation will provide.
    Senator Enzi. Thank you, and my time has expired. I will 
submit questions for the others. I appreciate everybody's 
participation.
    Senator Mikulski. Thank you, Senator Enzi. If you are here 
before the vote, we might be able to have another round then.
    Senator Hatch.
    Senator Hatch. Well, thank you, Madam Chairman.
    I just want to compliment all of you for the work you are 
doing, for what you have done all these years, for what it 
means to our country, what it means to those of us up here who 
are constantly trying to find ways of making our humanitarian 
concerns go farther and farther and farther. And I just want to 
pay respect to you.
    I will submit any questions, Madam Chairman, that I have. I 
am just grateful that you would chair this hearing. Again, I 
will mention my friend Senator Kennedy. I know he wishes he 
could be here with us today, and I was so pleased to see him 
honored on his 77th birthday. It was quite a soiree there the 
other night and enjoyed being there with Elaine.
    I think too few Americans really know what you folks do, 
and frankly, we need to get that out there more. Hopefully, 
this bill will assist in many ways to get more people involved 
so that we can truly continue to be the great country that we 
are.
    My own faith, along with the Catholic Church, they have 
combined together all over the world in humanitarian concerns, 
millions and millions of dollars. Food, clothing, 
pharmaceuticals, you name it. Right the minute it happens, they 
are ready to go.
    You folks are in that same category. I mean, you really, 
really do an awful lot of good, and I just want you to know how 
much I love and respect and appreciate you.
    Thanks, Madam Chairman. Appreciate it.
    Senator Mikulski. Senator Murray.
    Senator Murray. Thank you very much, Madam Chairman, for 
your leadership on this and for holding this hearing.
    Thank you to all of you for the tremendous work you do 
throughout all of your communities.
    I come from Washington State, and one of the things I am 
most proud of is my constituents' willingness and energy to get 
involved and help in their local communities. Even though this 
economic downturn has really hurt a lot of people, there are 
still an awful lot of people who are willing to get out and 
help and volunteer in their neighborhoods around the State.
    The problem that we are seeing is that people don't always 
know where to go to get matched up with the right kind of 
opportunities, and programs like AmeriCorps only serve a 
percentage of those people who do want to volunteer. The 
organizations that do coordinate volunteering opportunities are 
often flooded with a lot of requests and don't always have 
enough help to address those requests.
    We have worked to try and address this in the Serve America 
Act through the Volunteer Generation Fund, but I wanted an 
opportunity to hear from you, Mr. Solomont and Mr. Goldsmith. 
How have service organizations and the Corporation been working 
to utilize so many people today who are willing to help out, 
but might not be available for an intensive program like 
AmeriCorps?
    Mr. Solomont. Thank you, Senator.
    One of the ways is by focusing on the importance of making 
the leveraging of volunteer efforts through the AmeriCorps 
program part of the accountability to which we hold our 
grantees. We understand that we are not only providing 
AmeriCorps members to assist in not-for-profit organizations, 
but we are providing Ameri-
Corps members for the very purpose of engaging people at other 
levels of service.
    We have looked at the use of technology to try to reach 
folks through both volunteer.gov and to create a platform where 
people can go to find other opportunities for volunteering. We 
think that the social innovation fund, by finding the next 
generation of great social entrepreneurs, some of whom are at 
this table, and building to scale some of the next generation 
of ideas will also provide new vehicles for engaging 
volunteers.
    I am sure that the vice chairman would add to that.
    Mr. Goldsmith. No, I think Alan said it well, Senator. I 
would just emphasize that several years ago, we asked ourselves 
this very question, which is every dollar we spend should help 
a community organization reach out and incorporate more 
community volunteers. We made it part of the peer evaluation of 
the grants. We keep score in terms of how much leveraging 
occurs.
    Areas where we can further this work, whether it be--as 
Alan mentioned, we have been very active in using Web 2.0 tools 
to get more individuals involved, technologies, as you are well 
aware of. We need to do a little bit better job in training 
small organizations, who often need our help, but flounder a 
little bit on how to do it.
    It is an explicit part of our mission and, actually, we 
think the very purpose of the organization.
    Senator Murray. I have been talking to the Washington 
Commission for National and Community Service and service 
organizations across my State, and I am sure they are telling 
me exactly what all of you are hearing. Right now, there is a 
spirit of volunteerism despite the tough economy, but a lot of 
our service organizations' budgets are being cut because of 
that tough economy right now.
    If some of you could comment on what impact you are seeing 
as a result, I would appreciate it. Anybody?
    Mr. Goldsmith. Just one--the organizations can comment on 
it, but one quick response that Chairman Solomont made earlier, 
which is this bill allows us to make a fixed grant. Without 
going into the technicalities, it will make it much easier both 
to comply with the regulations and to proceed in a tough time. 
It makes it more flexible for the organizations to go forward.
    There is a big change. It is a little technical, but there 
is a big change in how we are allowed to operate under this 
bill, which will ameliorate that situation somewhat.
    Senator Murray. Right.
    Mr. Solomont. I would just add a point. One of the 
arguments for including national service in the stimulus 
package was to try to shore up the not-for-profit sector, which 
is a much larger piece of our economy than I think most people 
realize and which is under extraordinary pressure and is also 
providing front-line service to people who are most victimized 
by this economy.
    And so, we have made the argument, and I would propose that 
this is an argument that we should amplify, that national and 
community service is not just a nice thing to do to engage 
people, but it is really an important part of tying this 
economy together. I think it will be demonstrated particularly 
in this time of economic crisis.
    Senator Murray. Anybody else want to comment?
    Mr. Brown.
    Mr. Brown. Senator, it is a time of dissonance, where, on 
the one hand, more Americans want to come forward to serve more 
than ever. City Year applications are up 180 percent. Teach for 
America has 35,000 applicants for 4,000 spots. At the same 
time, because of the economy, nonprofits are cutting back, and 
that includes service organizations, and there aren't as many 
donations to go around.
    In the new study that just came out, ``The Quiet Crisis,'' 
it said that Call Centers United Ways are getting 10,000 more 
calls a month across the country just because of the issues of 
homelessness and related issues of the economy. That is why 
this legislation is critical. It is important to scale existing 
organizations, as Alan said, and the stimulus bill as well.
    I think what is uniquely possible right now is also working 
with the Department of Education that all of these forms of 
government and private sector can come together in a unique way 
because of the capacity that has been built over the last 16 
years. It is essential that we all work together to try to meet 
those needs and especially in our communities that are hurting 
around the country right now.
    Ms. Sagawa. If I could say one thing about the service 
infrastructure and that is, the State commissions are a really 
vital piece of making sure that all the programs of the 
corporation are strong and effective in States. They are going 
to have a lot more work because of this bill, which is good, 
because we want to push it out into the communities and into 
the States.
    They are going to need more support in order to do the 
important work that they have been given to do. I know that 
some of them are really struggling with State budgets now, and 
I just want to underline that.
    Senator Murray. OK, an excellent point.
    Senator Mikulski. Governor Racicot, did you want to comment 
on that part of it?
    Mr. Racicot. I don't think that I could improve upon the 
information that has been provided, Senator. Thank you very 
much.
    Mr. Strong. I would add one quick comment, and that is in 
terms of the older adults, what we are seeing is that they are 
able to step forward and offer--and really step into the gap, 
where there is a need for volunteerism. Even in this tight 
economic time, they still are coming forward, and we expect 
that trend to continue.
    Senator Murray. Well, I thank you. My time is up, but I 
just am really pleased that the President has put this forward 
as an initiative that he is truly behind and wants to get 
signed into law.
    I want to thank you, Senator Mikulski, for your leadership 
on moving us to get it to the floor and get it passed. I think, 
at a time when a lot of people are hurting, that we have to 
take advantage of the spirit of volunteerism that is in this 
country today and make sure that those people are getting the 
services they need.
    Thank you to all of you.
    Senator Mikulski. Well, thank you, Senator Murray.
    Because of the President's initiative, the compelling human 
need out there, the incredible Obama effect that is generating 
thousands and thousands of people who want to volunteer, and 
the fact that this is actually a bipartisan framework--it is 
Kennedy-Hatch--it will be the intention of this committee to 
have a markup next week, and the week thereafter to be on the 
floor and to have this completed before the Easter/Passover 
break.
    And the reason for that is to have the changes in the Serve 
America Act reflected in this year's appropriations to keep the 
momentum going that was provided by the stimulus. So, we can 
move forward with the stimulus and then the 2010 appropriations 
next October.
    Before I go to my questions, many people have mentioned 
that in the audience is Harris Wofford. I would like to 
formally recognize our former colleague, Senator Harris 
Wofford, who was the second CEO of the Corporation for National 
Service.
    Senator, why don't you stand up? You certainly deserve a 
round of applause.
    [Applause.]
    The first CEO was Eli Segal, and as they say in the Jewish 
tradition, a very happy and blessed memory. I believe the 
education award also carries the Segal name.
    I am going to ask about the education award because that 
hasn't come up in this moment where there are so many people 
willing to serve. When the bill was first done, we wanted to 
recognize two problems of the 1990s. One was converting the 
``me generation'' to the ``we generation,'' where we wanted to 
inculcate what de Tocqueville called the habits of the heart in 
a new generation of Americans.
    But the other, an ongoing problem, was student 
indebtedness. We've recognized that for many of our young 
people, the cost of higher education either was a deterrent to 
go or that their student loans was like their very first 
mortgage. We came up with a modest grant that was equal to the 
average cost of tuition at a college or a university that was a 
land-grant college, essentially a State university.
    That grant has not changed for more than 15 years. I turn 
to the chairman and the vice chairman for comments about this 
grant. No. 1, people say, and we will hear it in the markup and 
we will hear it on the floor, why should we pay people to 
volunteer?
    And No. 2, why should we raise it? And dare you say that it 
be tax free?
    Mr. Solomont. Well, you have highlighted a number of things 
that I think that we on the board support and have supported 
for a long time, and we thank the sponsors of the bill and 
folks who support the idea of raising the Segal education 
award. It is long overdue. We would also like to see it tied to 
the Pell Grant so that we don't have to wait for new 
legislation to do that.
    I also wanted to point out that there have been some other 
things done in other legislation, which have helped to 
recognize the value of service to this Nation and the 
appropriateness of acknowledging that through helping people 
with their higher education. I believe there was a bill that 
was enacted that forgives some of the college loans in return 
for certain types of service.
    I am pleased--we actually met with the Department of 
Education recently. The Department of Education approved Ameri-
Corps as one of the service experiences that would qualify for 
student loan forgiveness.
    We think that criticism of service as paid volunteers is 
probably an old argument. When we see the bipartisan enthusiasm 
today for this legislation and for expansion of service 
generally and also an acknowledgment of its value and also the 
collateral benefit of adding to education of young people, I 
hope that we can look forward and not back at some of those 
criticisms.
    One of the key participants in service are college students 
themselves. One of the things that we have talked about, and I 
can't remember if it is in the bill now or not or in which 
bill, but increasing the number--the requirement for work-study 
students, for universities and colleges to focus a certain 
amount of their work-study resources to encouraging students, 
rather than to provide service to their libraries and 
cafeterias, to actually do some work in the communities 
surrounding colleges and universities.
    I thank you for raising that point, Madam Chair.
    Senator Mikulski. Mr. Goldsmith, you are an old hand at 
this. Did you want to amplify that, or does that stand?
    Mr. Goldsmith. Is ``old hand'' a term of affection, Madam 
Chairman?
    [Laughter.]
    Senator Mikulski. It is. But we are going to come back to 
2003.
    Mr. Goldsmith. All right, thanks. I am sure we will.
    Very quickly on both points, the latter point first. We 
made a very intentional effort to look at these AmeriCorps 
slots as folks who work at a very minimal level of income in 
order to manage other volunteers, unpaid volunteers. We know 
these 75,000 manage 4 million individuals, and it is a small 
amount of money in order to accomplish that. We don't look at 
this as paid volunteerism, and I think the facts support it.
    Madam Chairman, I think the other question is enormously 
complicated. The implication of your question is correct. The 
value of the education award has diminished dramatically. In 
addition to it being diminished dramatically, it is also taxed.
    It presents a situation where actually some individuals 
don't even take advantage of it, and it also presents an 
administrative nightmare because, essentially, the education 
award and the stipend are connected, and it is kind of a 
hydraulic. One will limit the other. You kind of have to guess 
where they come out because you make a grant, and it hits the 
trust.
    I think that given the chair's commitment to service as a 
pathway to education, we might ask the question eventually how 
we do we look at the larger issues of service? The President 
has endorsed a loan forgiveness for service. Maybe over time, 
this program needs to be expanded and moved to the Department 
of Education. Not the service agenda, but the education award.
    It is just there is much more we can do with education than 
we can manage with the small amount of education dollars we 
have in our trust, and I totally endorse the Senator's 
implication. We would like to do a better job. It is simply a 
financial issue to us.
    Senator Mikulski. Well, might we invite you to do this? I 
would like, as we proceed to our markup and on the floor in 
discussions with the House, for you all to give us a memo, if 
you will, on the flashing yellow lights that you already have 
organizationally to administer it and the students' reaction to 
it. In some ways, it might put them into a different income 
bracket and make them ineligible for other aid. Whatever are 
your lessons learned, please include them in the memo.
    And then, No. 2, what would be some of those 
recommendations? Because since 1993, there have been new 
avenues for this, such as, the 2007 bill, the education reform 
bill that we did that offers debt forgiveness if you go into 
public service.
    Let us take a look at it, and then let us work with you all 
at the Corporation. Right now, I think we should keep what we 
have got through the markup, and then we can always revisit it.
    Let me then go to one other question managerially, and then 
I am going to go to the service programs. Some of these 
questions I am raising because while you heard today the yea-
sayers to this new bill, there are naysayers within the Senate 
and within this committee. So I am raising some of the 
naysayers' concerns.
    One of which, goes back to 2003. In 2003--not to rehash it 
in any way, but 2003, the corporation had a bureaucratic 
boondoggle. They over enrolled 20,000 volunteers and didn't 
have the money to pay for it and almost killed AmeriCorps and 
almost killed the spirit of AmeriCorps.
    Senator Bond was the chairman of the subcommittee, and I 
must really salute him. When he and I had VA/HUD and we had 
national service, he was an excellent partner on this. So we 
had to jump in. We raised hell about the board, caused a 
shakeup, etc.
    Having said that, let me go to where we are now. You have 
got stimulus money, but you have got all these people, as you 
have said, who really want to serve. My question is, No. 1, 
does the money match the number of volunteers? No. 2, do you 
have the administrative structure to handle both the stimulus 
money and also to handle this incredible new demand for people 
who want to serve?
    And No. 3, can we address the incredible community need 
that is bubbling up. It is almost like a tsunami of need in our 
community. Much was said about what is happening in the calls 
coming in to United Way. I met with my Baltimore United Way. It 
is stunning, stunning what is going on.
    First, does the money match the need? And second, do you 
have the infrastructure to both manage the money, bring in the 
volunteers in significant volume, but then get it out in a wise 
and prudent way in terms of meeting the need in the community?
    Mr. Solomont. First of all, I think we should acknowledge 
that the management difficulties that were encountered some 
years ago were a great embarrassment to the agency and to the 
board. I think the board, at your urging, got much more 
involved in dealing with them, and there was a shakeup for the 
corporation.
    I want to compliment the previous chair, who provided a lot 
of leadership during that time, absorbed a lot of criticism, 
but I think Chairman Goldsmith then really helped us through 
one of the most difficult times for the corporation.
    Going forward, I would say that the need is probably 
greater than any amount of money that we can apply to it. I 
think there were folks who had hoped that there would be a 
larger amount of money applied to national and community 
service in the stimulus package, but I think we are all 
restrained by a sense that it didn't make any sense to get more 
money than we had the capacity to put to work.
    Senator Mikulski. Because capacity is a big issue, and I am 
going to turn to Shirley Sagawa about that. Capacity is a huge 
issue, whether it is at the national level or for governors, 
who are really so stressed themselves right now.
    Mr. Solomont. Well, I think the watchword, as we look 
forward to an expansion of service programs across the board--
not just with the stimulus, but with the 2010 budget and 
beyond, and with this legislation--is to pursue growth 
responsibly and gradually so that we always have the capacity 
to put it to work in that way.
    We are just going to have to take a slightly longer term 
view of this, and we are not going to be able to grow 
AmeriCorps to 250,000 members overnight. We do think there is a 
great need and desire for that level of AmeriCorps membership. 
So, I think we are looking at establishing a glide path of 
funding in order to reach that.
    I can assure you that the senior staff under acting CEO 
Nicky Goren's leadership is very focused on building capacity 
to put this to work in a way that I think the board will be 
satisfied is prudent and so would you, Madam Chair.
    If I may apologize, speaking of higher education, I am 
supposed to get an award as a friend of----
    Senator Mikulski. You have to go?
    Mr. Solomont. Back in Boston. The one requirement is that I 
showed up. And I am afraid if I don't leave the hearing, I will 
miss the plane.
    Senator Mikulski. Well, go ahead. That is OK.
    Mr. Solomont. I apologize, but I reiterate my gratitude to 
you for your leadership and for calling this hearing.
    Senator Mikulski. Well, thank you. And good luck. What is 
the award?
    Mr. Solomont. I am fortunate enough to serve on the board 
of trustees of my alma mater, Tufts University, and because of 
whatever contribution they think I have made to higher 
education, I am being given an award as a friend of education.
    Senator Mikulski. Well, you sure are.
    Mr. Solomont. Thank you.
    [Laughter.]
    I am going to leave the tough questions for Steve.
    Mr. Goldsmith. Now I am unencumbered by his presence.
    Senator Mikulski. Now he's giving--there you go.
    Mr. Goldsmith. Now I will tell you what the real situation 
is.
    Senator Mikulski. Now I give it to the vice chairman. I 
think this is what Obama is going to start to do with Biden. 
That is OK.
    Mr. Goldsmith. Just very quickly, let me make a couple of 
points. I think your question is a serious one that deserves a 
serious answer. I don't mean to suggest Alan's wasn't. I mean a 
serious ongoing----
    Senator Mikulski. Would you like to do this in writing?
    Mr. Goldsmith. Yes, because we have a lot more to do, and 
this bill will help us do many of those things. We need to be 
careful on how--we have a COO, as an addition to CEO. This bill 
and this year's appropriation will allow us to actually have an 
IT system that supports the field. We need to have an outside 
management consultant come in.
    We can rethink the way this organization is managed as a 
result of this bill, and we take the responsibility of doing 
it. We are better off than we were before you admonished us, 
and we are not yet ready to manage----
    Senator Mikulski. Sure. That was 10 years ago. We really 
learned that if we don't have our capacity in place and we 
don't have a focused board to deal with it--but I know the 
board is very focused now--it can present problems.
    Why don't you do a memo for us about capacity? We 
authorizers will then share that with Senator Harkin's 
appropriations' staff. And while we are authorizing, we are 
also looking at what we need to do with the 10 appropriations 
so that we don't create hollow opportunities.
    To pass an authorization that does not have the resources 
behind it just makes us feel good. We want to do good, which 
means we have to then do the authorizing and the 
appropriations, but in a way that achieves these managerial 
efficiencies and stewardship that Senator Enzi has been so 
excellent in articulating and standing sentry over. Why don't 
you give that to us in writing?
    Let me go to some of the service aspects. I want to go to 
those who are doing the service, both you, Mr. Brown and to Mr. 
Strong, because you have been part of AmeriCorps. Then I will 
come back to you, Michelle.
    Within the Serve America bill, there is the establishment 
now of separate corps. The Experience Corps stays the same. 
There is the Education Corps, the Clean Energy Corps, the 
HealthCorps, and so on.
    Based on your experience, would you endorse that being in 
the bill, and would you give commentary on whether it be 
separate or part of AmeriCorps?
    Mr. Brown. I think it is the perfect next step for national 
service, Madam Chairwoman. The existing AmeriCorps framework is 
so responsive to State and local needs and has really let 1,000 
flowers bloom.
    Now at the same time, we know we have major national 
challenges in education, healthcare, clean energy, and poverty. 
It is essential that there be a national component to national 
service and that national service shows that it can actually 
move the needle on something.
    That is where we will get national service one day at a 
major scale. We will get to that million-person level when 
national service can be that focused on common metrics 
throughout the country.
    That is what these new corps do. They provide an 
opportunity for common metrics. I think that will allow a 
scaling up. I also think it is a responsible scaling up. We are 
going to 250,000 members. It is a 175,000 increase over 4 
years. And so, I think that those capacities can be built over 
time.
    I know for the high school dropout crisis, all the research 
is basically saying that unless we bring a transformative new 
resource, such as young people into the schools, we can't get 
the job done. They need to be brought in in large enough 
cohorts.
    And finally, I think there is an opportunity with these new 
corps to be very strategic because someone now at the 
Corporation for National Service can say, ``I have got 100,000 
possible new members to put into education. How can I work 
strategically with local school districts around the country 
that want to scale up a specific resource, and how can I work 
with the Department of Education, Secretary Duncan?''
    I think that is a whole new way of using national service 
resources.
    Senator Mikulski. The vote is starting.
    Mr. Strong.
    Mr. Strong. I would only add, Madam Chairman, that what I 
see that it does, in addition to what Michael is saying, is 
that I think it is a powerful catalyst for each one of these 
categories. What it does is that it gives a framework within 
which we can really draw more and more service support for each 
of these critical sectors.
    I concur that I think it is a valuable----
    Senator Mikulski. Experience Corps, for example, in 
Baltimore has been focused on education. You talked about the 
work of Barclay School that has been ongoing for a while. And 
really, they kind of grow up and grow old together.
    In addition to education, is Experience Corps involved in 
other activities as well?
    Mr. Strong. Certainly the original vision for Experience 
Corps was to serve multiple needs. However, at this moment in 
time, we feel that we have really begun to develop best 
practices in the area of education. We really have begun to 
make a scalable model that we think really has significance for 
the country.
    Our intention certainly for the medium term is to stay 
focused on education because we think we can have a major 
impact in that area.
    Senator Mikulski. That goes to what Mr. Brown has said.
    Let us go to health, and we also want to acknowledge that 
the national community HealthCorps is here, and they already 
have made a very big footprint.
    You know, the country and the Congress is obsessed with 
outcomes. Certainly Congress is, and they talk a lot about 
educational outcomes, and you have worked to help. In health, 
whenever we talk about health reform, we talk about insurance 
reform. That is not a bad thing to talk about, but it doesn't 
get us to health reform.
    Now speaking as a grassroots community organizer myself, I 
wonder, Michelle, if you could tell us what you did to improve 
the health outcomes of the students in the schools that you 
have been in. You have worked with a tough population, which is 
teen and preteen. They are used to schoolmarmish lectures, 
those god-awful movies about the importance of eating fruits 
and vegetables.
    We won't even talk about sex education. No, no, no. Not at 
this hearing. You know, health education tends to be deadly and 
dull.
    Ms. Bouchard. Well, our program----
    Senator Mikulski. Did your work----
    Ms. Bouchard. Pardon?
    Senator Mikulski [continuing]. The work of the volunteers 
improve health outcomes?
    Ms. Bouchard. It certainly changed their behaviors. We know 
that now. Actually, Dr. Oz is going to present the results of 
this first study, and it has decreased their amount of soda 
consumption. If you heard Dr. Weil speak on the integrative 
hearing, he believes that soda will be the No. 1----
    Senator Mikulski. Yes, but what you said was that when you 
were here the other day, you talked about how young, energetic 
people went in, and they had new, edgy ways of communicating 
with teenagers.
    Ms. Bouchard. Yes.
    Senator Mikulski. You got them focused. Well, if you said 
to a strapping young male, ``Eat your broccoli,'' you know, 
they would turn green all right.
    Ms. Bouchard. That is right. Especially if I said it, as a 
47-year-old.
    Senator Mikulski. In the 30 seconds before I have to leave, 
what did you do?
    Ms. Bouchard. We went in and we made the lessons 
intrinsically fun. They were fun. Because kids don't want to 
learn lessons, and they don't even want to do something if you 
say, ``Hey, this is good for your body.'' They don't care. They 
want to have fun. Our messaging to the kids from other young 
people is fun.
    Senator Mikulski. But, it did improve health outcomes?
    Ms. Bouchard. It did, yes.
    Senator Mikulski. You also said it started a pedometer 
craze or a walking craze?
    Ms. Bouchard. Yes. Actually, it spread out to the 
community. In fact, in Pennsylvania at one school, the 
coordinator gave out pedometers to the other students, and it 
started a craze in the town because everyone wanted a 
pedometer.
    Senator Mikulski. See, I think these new corps are 
identifying things. When we look at something that would go 
across agencies from national service to education to health 
and human services, where we looked at not programs, but 
communities, this is going to make a difference.
    Thank you.
    Before I go, Ms. Sagawa, you are, again, experienced in 
this, and we have talked about the corps. There are some very 
unusual and innovative things in here. The Community Solutions 
Fund pilot program, is this venture capital? Don't tell me this 
is TARP meets national service.
    [Laughter.]
    Ms. Sagawa. With a lot more accountability.
    Senator Mikulski. I knew that would wake everybody up.
    Ms. Sagawa. It is like venture capital. It is based on 
venture philanthropy, which focuses very much on outcomes and 
focuses on scaling organizations that have achieved results.
    This would be capital that would be leveraged through 
funders to go to organizations that have proven they work. They 
are ready to scale, and their challenge is finding growth 
capital. This is a way for the Federal Government to leverage 
$3 for every $1 it invests.
    Senator Mikulski. Which is what we talked about earlier.
    Ms. Sagawa. Yes, which we really need. It is a way of 
solving problems that is kind of different for the Federal 
Government but could be a great model for other areas if it is 
successful. That is why we call it a pilot program.
    Senator Mikulski. How much are we talking about?
    Ms. Sagawa. Well, I haven't seen the final numbers in the 
bill. It is a modest investment, I think, initially of around 
$50 million? I think there is a lot of potential for it to 
grow.
    What is great about it is it would allow for both national 
funds to tackle big issues that the whole country is challenged 
with. One of the great things about AmeriCorps has been its 
national direct fund, which allows organizations like City Year 
and Experience Corps that operate in more than one State to not 
have to apply to every single State to get the money they need 
in order to grow.
    That is one thing the fund would do, and the other would be 
local communities could decide our big problem is teen 
pregnancy, or it is crime in this neighborhood. Then they could 
bring the best solutions to scale, whether they are homegrown 
or something that they learned about that is half way across 
the country that could be imported.
    Senator Mikulski. Well, thank you. I think that answers the 
question.
    We are going to adjourn the hearing, not because we 
couldn't have another round, and we certainly had some 
questions for Governor Racicot.
    First of all, I want to thank everybody in this room--
especially, everybody on the panel. Thank you for your service 
and your dedication.
    To everybody in this room, you wouldn't be here if you are 
not involved in some way. To quote our President, everybody in 
this room makes a difference. You do it every single day. Let 
us work together and let us make change. Everyone makes a 
difference when we work together. Let us make change. Time to 
turn the page.
    Thank you.
    This committee stands in recess, subject to the call of the 
Chair.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

 Prepared Statement of Wendy Kopp, CEO and Founder of Teach For America
    Thank you for the opportunity to submit testimony in support of S. 
277, the ``Serve America Act.'' Teach For America greatly admires and 
appreciates the work that you and this committee are doing to expand 
national service opportunities. I applaud the leadership that Senators 
Kennedy and Hatch have so ably demonstrated in moving forward with this 
bill. Both Senators have led by example--their own careers are 
testaments to public service. I would also like to express my sincere 
admiration and respect for the presiding chair, Senator Mikulski, for 
her unwavering dedication to national service throughout her career, 
through personal service to VISTA, public service as an elected 
official, and as the self-proclaimed ``Godmother of Community 
Service.'' Of course I would also like to recognize and thank President 
Obama for his leadership in renewing a national spirit of service.
    Teach For America exists to address educational inequity--the 
reality that in our Nation, which aspires so admirably to be a land of 
equal opportunity, where one is born still largely determines one's 
educational outcomes. Despite plenty of evidence that children growing 
up in poverty can excel academically--when given the opportunities they 
deserve--the stark reality in our Nation today is that many of the 13 
million children growing up below the poverty line do not achieve at 
acceptable levels for our community or our country.
    Educational inequity is one of our Nation's greatest injustices, 
and in these challenging economic times it is even more crucial that we 
continue to invest in proven strategies that work to close this 
achievement gap. Indeed, for the long-term economic strength of our 
country, we must redouble our efforts in ensuring that all of our 
Nation's children have access to a high-quality education.
    Fortunately, the Serve America Act is being proposed at a time when 
our Nation's future leaders are yearning to answer the need for 
excellent educators. Over the last few months, more than 35,000 
outstanding recent graduates of all academic majors and career 
interests have applied to Teach For America, determined to channel 
their talent and energy against educational inequity. Not only do these 
numbers set a new record for us, but Teach For America is attracting a 
higher quality pool of recruits than ever before. For example, over 11 
percent of all seniors at the Ivy League colleges applied this year. 
And continuing a trend that has been growing for several years, Teach 
For America also received large numbers of applicants from exceptional 
Historically Black Colleges and Universities, including a remarkable 25 
percent of the graduating seniors from Spelman College and almost 9 
percent from Morehouse College.
    Teach For America will select around 4,000 rare leaders from among 
these applicants and will train and support them to teach successfully 
for 2 years in our Nation's highest poverty communities and then to 
work throughout their lives, from inside and outside of schools, to 
increase educational opportunity in America. With the help of this act, 
we will be able to grow that number further and to increase our corps 
members' immediate impact raising student achievement as well as their 
long-term impact leading some of the country's most innovative 
organizations working to expand educational opportunity.
    Indeed, I am particularly excited that the act will help to grow 
the number of great teachers in our schools through the Education Corps 
Fund, which is focused on increasing student academic achievement. 
Research has consistently shown that having a great teacher in the 
classroom is the most important factor for students' academic success 
and the Serve America Act will provide additional incentives to bring 
more high-caliber leaders into the classrooms that need them most, both 
by providing more AmeriCorps slots and thus increasing the number of 
education awards, as well as growing the value of the education award 
itself.
    For the recent college graduates who become Teach For America corps 
members, the ability to work as teachers directly after college puts 
them on a path to a lifetime of service. Through nearly 20 years of 
experience, I have seen that teaching successfully in an underserved 
community is transformative for so many of our Nation's top young 
people. While only 1 in 10 corps members say they were considering a 
career in teaching before they joined Teach For America, two-thirds 
continue to work full-time in education as alumni. This re-inforces for 
me the importance of investing young people in service.
    I am also excited that the act encourages innovation in the 
nonprofit sector. From my vantage point I have seen many of our 
talented alumni meld their dedication to service with their 
entrepreneurial spirit to create some of the most innovative and 
successful social enterprises in education, like the Knowledge Is Power 
Program (KIPP) and The New Teacher Project. At Teach For America, we 
aim to facilitate the growth of the next generation of social 
innovators who will help us to realize educational equity. I believe 
the Community Solutions Funds provision of this legislation will help 
make that happen, while also encouraging promising social entrepreneurs 
to focus on solving local problems. And I look forward to the findings 
of the commission created by this legislation to study and improve how 
the Federal Government, nonprofits and the private sector can work 
together to meet challenges effectively.
    Certainly there is no investment with a greater long-term return 
than an investment in the education of our Nation's children, and I am 
so pleased that this committee has taken the leadership to harness the 
burgeoning desire of people across the country for public service and 
direct it towards the injustice of educational inequity. We can solve 
educational inequity--the only question is whether our response to the 
problem will be big enough and effective enough. With the help of the 
Serve America Act, we are determined to make it so.
   Questions of Senator Hatch to Stephen Goldsmith and Alan Solomont
                     questions to stephen goldsmith
    Question 1. The Serve America Act represents a significant new 
investment in volunteer service programs on the part of the Federal 
Government. In addition to increasing resources, this legislation will 
amplify the mission and role of the Corporation for National and 
Community Service. While the bill is also intended to enhance the role 
of State governments in volunteer service, the Corporation will clearly 
be given more responsibility under the new programs.
    What action has the Corporation taken to prepare for this increase 
in both its mission and its role?

    Question 2. In this age of bailouts, stimulus packages, and omnibus 
spending bills, I think many of our constituents are more concerned 
than ever about how Congress and the Federal Government use taxpayer 
funds. As a co-author of the Serve America Act, I believe that a modest 
investment in volunteer service is not only justified, but necessary 
under the current economic conditions. That said, I believe we'd be 
shirking our responsibility if we did not act to make sure that any new 
programs are undertaken in a prudent and cost-effective manner.
    How, in your view, can we ensure that we generate the highest 
return on this new investment in service?
                       questions to alan solomont
    Question 1. The Serve America Act represents a significant new 
investment in volunteer service programs on the part of the Federal 
Government. In addition to increasing resources, this legislation will 
amplify the mission and role of the Corporation for National and 
Community Service. While the bill is also intended to enhance the role 
of State governments in volunteer service, the Corporation will clearly 
be given more responsibility under the new programs.
    What action has the Corporation taken to prepare for this increase 
in both its mission and its role?

    Question 2. In this age of bailouts, stimulus packages, and omnibus 
spending bills, I think many of our constituents are more concerned 
than ever about how Congress and the Federal Government use taxpayer 
funds. As a co-author of the Serve America Act, I believe that a modest 
investment in volunteer service is not only justified, but necessary 
under the current economic conditions. That said, I believe we'd be 
shirking our responsibility if we did not act to make sure that any new 
programs are undertaken in a prudent and cost-effective manner.
    How, in your view, can we ensure that we generate the highest 
return on this new investment in service?
            Questions of Senator Hatch to Stephen Goldsmith
    Question 1. As you know, many of the most effective service efforts 
in the country are spearheaded by faith-based and church-sponsored 
organizations. In recent years, the Federal Government has pursued 
initiatives that have allowed these groups to compete with secular 
organizations for funds and assistance in providing non-religious 
services. It is my hope that this will continue with the passage of the 
Serve America Act. While I do not believe we can accord faith-based 
groups any special treatment or status in these programs, I believe we 
need to make sure they are given a fair shake as they compete for 
funds.
    In your opinion, how can we best ensure that faith-based groups are 
treated equally with their secular counterparts in terms of getting 
support to provide vital human services?
                Questions of Senator Hatch to the Panel
    Question 1. While working on the Serve America Act, one of my top 
priorities was increasing accountability in our service programs. As 
with any Federal Government program, I believe that we need to be 
results-oriented. After all, if we aren't focused on achieving specific 
results and accomplishing specific goals, why are we creating new 
programs? So, as we're discussing what the new generation of national 
service will look like, I'd like to hear some of the panel's thoughts 
as to how we'll measure the success of national service going forward.
    Two years from now, after this legislation is enacted, what does 
success in the service field look like? Will it be measured in terms of 
the number of Americans serving? Or will it be a track record of 
success in addressing one or two big problems?
               Questions of Senator Hatch to Marc Racicot
    Question 1. As we work to foster more volunteer service, I believe 
that we need to harness the ingenuity and inventiveness of the American 
people. Toward that end, I think we've crafted a bill that will have 
enough flexibility for groups and individuals to come up with their own 
ideas on how to best serve the people in their communities. As we work 
to address our nation's problems, I think innovation and new ideas will 
be invaluable assets.
    What are some of the best examples of innovation that you've seen 
in the area of volunteer service and how can we best utilize these 
ideas while both limiting the investment of resources and maximizing 
potential benefits?

    [Editor's Note: Responses to the above questions were not available 
at time of print.]

    [Whereupon, at 4:30 p.m., the hearing was adjourned.]

                                   

      

</pre></body></html>
